<html>
<title> - COMMERCIAL FISHING VESSEL SAFETY</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]



 
                    COMMERCIAL FISHING VESSEL SAFETY

=======================================================================


                                (110-33)

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                COAST GUARD AND MARITIME TRANSPORTATION

                                 OF THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                             APRIL 25, 2007

                               __________


                       Printed for the use of the
             Committee on Transportation and Infrastructure




                     U.S. GOVERNMENT PRINTING OFFICE

35-915 PDF                 WASHINGTON DC:  2007
---------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing
Office  Internet: bookstore.gpo.gov Phone: toll free (866)512-1800
DC area (202)512-1800  Fax: (202) 512-2250 Mail Stop SSOP, 
Washington, DC 20402-0001



             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                 JAMES L. OBERSTAR, Minnesota, Chairman

NICK J. RAHALL, II, West Virginia    JOHN L. MICA, Florida
PETER A. DeFAZIO, Oregon             DON YOUNG, Alaska
JERRY F. COSTELLO, Illinois          THOMAS E. PETRI, Wisconsin
ELEANOR HOLMES NORTON, District of   HOWARD COBLE, North Carolina
Columbia                             JOHN J. DUNCAN, Jr., Tennessee
JERROLD NADLER, New York             WAYNE T. GILCHREST, Maryland
CORRINE BROWN, Florida               VERNON J. EHLERS, Michigan
BOB FILNER, California               STEVEN C. LaTOURETTE, Ohio
EDDIE BERNICE JOHNSON, Texas         RICHARD H. BAKER, Louisiana
GENE TAYLOR, Mississippi             FRANK A. LoBIONDO, New Jersey
ELIJAH E. CUMMINGS, Maryland         JERRY MORAN, Kansas
ELLEN O. TAUSCHER, California        GARY G. MILLER, California
LEONARD L. BOSWELL, Iowa             ROBIN HAYES, North Carolina
TIM HOLDEN, Pennsylvania             HENRY E. BROWN, Jr., South 
BRIAN BAIRD, Washington              Carolina
RICK LARSEN, Washington              TIMOTHY V. JOHNSON, Illinois
MICHAEL E. CAPUANO, Massachusetts    TODD RUSSELL PLATTS, Pennsylvania
JULIA CARSON, Indiana                SAM GRAVES, Missouri
TIMOTHY H. BISHOP, New York          BILL SHUSTER, Pennsylvania
MICHAEL H. MICHAUD, Maine            JOHN BOOZMAN, Arkansas
BRIAN HIGGINS, New York              SHELLEY MOORE CAPITO, West 
RUSS CARNAHAN, Missouri              Virginia
JOHN T. SALAZAR, Colorado            JIM GERLACH, Pennsylvania
GRACE F. NAPOLITANO, California      MARIO DIAZ-BALART, Florida
DANIEL LIPINSKI, Illinois            CHARLES W. DENT, Pennsylvania
DORIS O. MATSUI, California          TED POE, Texas
NICK LAMPSON, Texas                  DAVID G. REICHERT, Washington
ZACHARY T. SPACE, Ohio               CONNIE MACK, Florida
MAZIE K. HIRONO, Hawaii              JOHN R. `RANDY' KUHL, Jr., New 
BRUCE L. BRALEY, Iowa                York
JASON ALTMIRE, Pennsylvania          LYNN A WESTMORELAND, Georgia
TIMOTHY J. WALZ, Minnesota           CHARLES W. BOUSTANY, Jr., 
HEATH SHULER, North Carolina         Louisiana
MICHAEL A. ACURI, New York           JEAN SCHMIDT, Ohio
HARRY E. MITCHELL, Arizona           CANDICE S. MILLER, Michigan
CHRISTOPHER P. CARNEY, Pennsylvania  THELMA D. DRAKE, Virginia
JOHN J. HALL, New York               MARY FALLIN, Oklahoma
STEVE KAGEN, Wisconsin               VERN BUCHANAN, Florida
STEVE COHEN, Tennessee
JERRY McNERNEY, California
VACANCY

                                  (ii)


        SUBCOMMITTEE ON COAST GUARD AND MARITIME TRANSPORTATION

                 ELIJAH E. CUMMINGS, Maryland, Chairman

GENE TAYLOR, Mississippi             STEVEN C. LaTOURETTE, Ohio
RICK LARSEN, Washington              DON YOUNG, Alaska
CORRINE BROWN, Florida               HOWARD COBLE, North Carolina
BRIAN HIGGINS, New York              WAYNE T. GILCHREST, Maryland
BRIAN BAIRD, Washington              FRANK A. LoBIONDO, New Jersey
TIMOTHY H. BISHOP, New York          TED POE, Texas
VACANCY                              JOHN L. MICA, Florida
JAMES L. OBERSTAR, Minnesota           (Ex Officio)
  (Ex Officio)

                                 (iii)

                                CONTENTS

                                                                   Page

Summary of Subject Matter........................................   vii

                               TESTIMONY

Backus, Ann, Director of Outreach, Department of Environmental 
  Health, Harvard School Of Public Health........................    24
Baines, Robert, Fisherman and Chairman, Maine Commercial Fishing 
  Safety Council.................................................    24
Bone, Rear Admiral Craig, United States Coast Guard, Assistant 
  Commandant for Prevention......................................     3
Collins, Captain Blaine E., Vice President and Regional Manager 
  N/S America, Det Norske Veritas................................    24
Dzugan, Jerry, Chairman, Commercial Fishing Industry Vessel 
  Safety Advisory Committee, Executive Director, Alaska Marine 
  Safety Education Association...................................     3
Frank, Hon. Barney, a Representative from the State of 
  Massachusetts..................................................     9
Hughes, Leslie, Executive Director, North Pacific Fishing Owners 
  Association, Former Member of Commercial Fishing Industry 
  Vessel Safety Advisory Committee...............................    24
Lincoln, Jennifer M. Ph.D., Injury Epidemiologist, Commercial 
  Fishing Research Project Officer, CDC/NIOSH/Alaska Field 
  Station........................................................     3
Shrader, Deb, Shore Support, Inc., New Bedford, Massachusetts....    24

          PREPARED STATEMENTS SUBMITTED BY MEMBERS OF CONGRESS

Bishop, Hon. Timothy H., of New York.............................    42
Cummings, Hon. Elijah E., of Maryland............................    43
Frank, Hon. Barney, of Massachusetts.............................    46
Larsen, Hon. Rick, of Washington.................................    49

               PREPARED STATEMENTS SUBMITTED BY WITNESSES

Backus, Ann......................................................    50
Baines, Robert S.................................................    65
Bone, Rear Admiral Craig.........................................    69
Collins, Blaine E................................................    77
Dzugan, Jerry....................................................    87
Hughes, Leslie J.................................................    91
Licoln, Jennifer Ph.D............................................    95
Shrader, Debra M.................................................   109

                       SUBMISSIONS FOR THE RECORD

Bone, Rear Admiral Craig, United States Coast Guard, Assistant 
  Commandant for Prevention, response to question from Rep. 
  LaTourette.....................................................    17
Lincoln, Jennifer M. PhD, Injury Epidemiologist, Commercial 
  Fishing Research Project Officer, CDC/NIOSH/Alaska Field 
  Station, chart of commerical fishing industry fatality rate by 
  fishery, Alaska, 2000-2006, as requested by Rep. Larsen........    21

                        ADDITIONS TO THE RECORD

 H E Candage, Inc., Howard E. Candage, President, written 
  testimony......................................................   112
Northeast Maritime Institute, Eric R. Dawichi, President & CEO, 
  written statement..............................................   120
National Research Council, Marine Board Study Report, Fishing 
  Vessel Safety: Blueprint for a National Program, submitted by 
  Alan R. Dujenski...............................................   130
United States Marine Safety Association, Burt W. Thompson, 
  Executive Director, written statement..........................   139
[GRAPHIC] [TIFF OMITTED] 35915.001

[GRAPHIC] [TIFF OMITTED] 35915.002

[GRAPHIC] [TIFF OMITTED] 35915.003

[GRAPHIC] [TIFF OMITTED] 35915.004

[GRAPHIC] [TIFF OMITTED] 35915.005

[GRAPHIC] [TIFF OMITTED] 35915.006



              HEARING ON COMMERCIAL FISHING VESSEL SAFETY

                              ----------                              


                       Wednesday, April 25, 2007

                   House of Representatives
    Committee on Transportation and Infrastructure,
   Subcommittee on Coast Guard and Maritime Transportation,
                                                    Washington, DC.
    The Subcommittee met, pursuant to call, at 10:00 a.m., in 
Room 2167, Rayburn House Office Building, the Honorable Elijah 
E. Cummings [Chairman of the Subcommittee] presiding.
    Mr. Cummings. This hearing will come to order.
    Today, the Subcommittee on the Coast Guard and Maritime 
Transportation convenes a hearing to examine fishing vessel 
safety in the United States. Commercial fishing is, according 
to the Bureau of Labor Statistics, the most hazardous 
occupation in the Country, so it is important that the 
Subcommittee examine the role the Federal Government should 
play in enhancing safety for those who spend their lives at sea 
harvesting fish and seafood for both the American and world 
markets.
    Tragically, fatal injuries among fishermen and women 
increased 50 percent during the period from 2002 to 2005, while 
fatal injuries among all U.S. workers increased by only 3 
percent during that same period.
    The fatal occupational injury rate was 140 fatalities per 
100,000 fishers, more than 28 times the average rate for all 
industries. Further, according to a recent Coast Guard 
analysis, an average of 127 fishing boats were lost and 58 
fishers were killed each year during the period of 1994 to 
2004.
    Fishermen and women have been an important part of the 
American economy since the first settlers landed on the shores 
of Virginia and Massachusetts, and commercial fishing still 
sustains thousands of families and contributes billions of 
dollars to our economy.
    But when commercial fishing turns deadly--and, tragically, 
it often does--families are torn apart by the loss of husbands, 
wives, sons, and daughters. Six years ago, 15 families 
experienced such terrible losses when the fishing vessel 
``Arctic Rose'' sank in the Bering Sea in what was the worst 
fishing vessel casualty since 1951.
    For years, Congress required that fishing vessels be 
equipped with life jackets, but little else, which is a bit 
like asking airline passengers to make sure to pack their 
parachutes before boarding, but not requiring seat belts or 
emergency exits or fire suppression systems on the planes.
    In 1988, Congress passed the Commercial Fishing Industry 
Vessel Safety Act, which required that commercial fishing 
vessels carry more modern life saving equipment. Today, 
however, there are still no design construction maintenance or 
operating standards for commercial fishing vessels.
    Therefore, we will hear the testimony of witnesses who will 
share with us their experiences under the existing statutes 
and, most importantly, help point us in the directions that can 
prevent casualties from occurring on fishing vessels and 
hopefully enable crews on fishing vessels to respond quickly 
and appropriately to onboard emergencies and maximize lives 
saved in the event an accident does occur.
    It is my hope that the Subcommittee will gain a greater 
appreciation of this most hazardous occupation and will 
identify specific actions that can be taken to protect the 
lives of those who make a living from the sea.
    I also want to thank Congressman Barney Frank for his 
leadership on this issue that is of critical concern to his 
district. Congressman Frank will join us shortly, after 
convening a hearing in the Financial Services Committee, and we 
look forward to hearing from him.
    Mr. LaTourette.
    Mr. LaTourette. Thank you very much, Mr. Chairman. Mr. 
Chairman, most of the attention focused on the Coast Guard in 
the last few years has been on the service's responsibility to 
provide for the service and security of the maritime 
transportation sector. However, the Coast Guard's traditional 
missions like maritime safety are still equally important, and 
I want to commend you, Chairman Cummings, for convening this 
hearing today.
    Just as a side note, with the convening of this hearing 
today, I have now officially spent more time with you than I 
have with my wife over the last two weeks, so I thank you for 
that.
    [Laughter.]
    Mr. LaTourette. Unlike virtually all other commercial 
vessels in the United States, fishing vessels are not required 
to be inspected by the Coast Guard. Legislation was passed in 
2004 to bring towing vessels, the other significant remaining 
classes of uninspected vehicles, under a Coast Guard inspection 
regime. Regulations to carry out that provision are currently 
being drafted.
    A separate authority and regulatory regime exists to assure 
the safety of recreational fishing vessels that are found in 
the Great Lakes, where I hale from, and, therefore, I don't 
believe this hearing will look into those vessels.
    The rate of death in the fishing industry remains 
significantly higher than in other industrial occupations. I 
look forward to hearing discussions from the witnesses today 
about whether this higher death rate could be significantly 
reduced by increased attention to the condition of the vessels 
and safety equipment, in other words, items subject to inspect, 
or whether the higher death rate is due to weather conditions, 
the remote locations, or the work and the dangers inherent in 
the process of fishing.
    I am also curious to hear whether there are ways in which 
fishery managers can improve industry safety by crafting 
fishery management plans that allow fishermen flexibility on 
when they can fish.
    Again, Chairman Cummings, I want to thank you for holding 
this hearing today, and I look forward very much to the 
testimony of our witnesses.
    Mr. Cummings. Thank you very much, Mr. LaTourette.
    We will call our first panel: Rear Admiral Craig Bone, Dr. 
Jennifer Lincoln, and Jerry Dzugan.
    Rear Admiral Craig Bone, Assistant Commandant for 
Prevention, of the Coast Guard. Welcome. We will hear from you 
first.

     TESTIMONY OF REAR ADMIRAL CRAIG BONE, USCG, ASSISTANT 
  COMMANDANT FOR PREVENTION; JENNIFER M. LINCOLN, PHD, INJURY 
 EPIDEMIOLOGIST, COMMERCIAL FISHING RESEARCH PROJECT OFFICER, 
    CDC/NIOSH/ALASKA FIELD STATION; JERRY DZUGAN, CHAIRMAN, 
 COMMERCIAL FISHING INDUSTRY VESSEL SAFETY ADVISORY COMMITTEE, 
 EXECUTIVE DIRECTOR, ALASKA MARINE SAFETY EDUCATION ASSOCIATION

    Admiral Bone. Good morning, Mr. Chairman and distinguished 
Members of the Subcommittee. I am Rear Admiral Craig Bone, 
Assistant Commandant for Prevention, United States Coast Guard. 
I am pleased to have this opportunity to appear before you 
today to discuss the Coast Guard's Commercial Fishing Vessel 
Safety Program and its initiatives.
    Before I begin, I would like to take a moment, on behalf of 
the Commandant, to express our sincere condolences on the loss 
of your Committee Member, Representative Millender-McDonald.
    The Coast Guard's Commercial Fishing Vessel Safety Program 
is aimed at improving safety in the commercial fishing 
industry, reducing the number of vessels lost, and reducing the 
loss of lives. The thrust of the existing Commercial Fishing 
Vessel Safety Program is to gain compliance with the commercial 
fishing regulations through educational, voluntary, no-fault, 
dockside safety exams and through other outreach efforts. 
Regulatory enforcement is accomplished through at-sea boardings 
which complement the Commercial Fishing Vessel Safety Program. 
We must balance our prevention efforts with our response 
capabilities to minimize the consequences of casualties when 
they do occur.
    Commercial fishing is historically one of the most 
hazardous occupations, if not the most hazardous occupation, in 
the United States. In 2005, the Bureau of Labor Statistics 
found that commercial fishermen and workers aboard uninspected 
fishing vessels died at a rate of 118 per 100,000 workers. For 
comparison, the fatality rate for the towing industry, another 
uninspected segment of the marine industry, was only 17 per 
100,000 workers, while the American workplace as a whole, as 
stated by the Chairman, was only 4 deaths per 100,000 workers.
    Commercial fishing vessel safety has long been a matter of 
concern of the Coast Guard, but limitations on regulating the 
safety of commercial fishing vessels have been encountered 
because they are classified as uninspected vessels. From the 
1930s to the 1980s, there were various legislative proposals to 
increase safety standards for commercial fishing vessels, such 
as requirements for periodic safety inspections, watertight 
compartments, and licensing of vessel operators. None of those 
proposals came to fruition.
    In 1971, the Coast Guard completed a study and cost-benefit 
analysis of alternative safety programs for commercial fishing 
vessels. The report documented the fishing industry's poor 
safety record and concluded that one of the primary causes was 
that fishing vessels, with few exceptions, have traditionally 
been exempted from safety regulations required of other 
commercial vessels.
    The study recommended licensing of masters, mandatory 
safety standards including full inspection and certification of 
new vessels, and mandatory and voluntary standards combined 
with inspection and certification of existing vessels. The 
report also compared fishing vessels with small passenger 
vessels, noting the 80 percent reduction in passenger deaths 
after the Small Passenger Vessel Safety Act of 1956 required 
structural and loading standards on inspections on those 
vessels.
    Several fishing vessel tragedies in the early 1980s, as 
well as the fishermen's concerns over rising insurance costs, 
resulted in renewed interest in fishing vessel safety. The 
Coast Guard formed a Fishing Vessel Initiative Task Force in 
August 1984 to study how fishing vessel safety could be 
promoted. Task Force recommendations resulted in voluntary 
safety standards for commercial fishing vessels.
    The Commercial Fishing Vessel Industry Safety Act of 1988 
was signed into law by the president on September 9th, 1988. 
This Act gave the Coast Guard authority to prescribe safety 
regulations. The impact of the safety legislation and 
regulations and subsequent safety initiatives was seen in a 
reduction of our fatality averages.
    Despite market improvement in safety within the commercial 
fishing vessel industry, the Coast Guard is troubled by our 
inability to prevent vessel losses. Half of all casualties 
result from vessel losses predominantly from material failures 
in the hulls and the crew's inability to either prevent the 
casualties or respond to the emergencies. These very issues 
were addressed in the requirements for training and competency 
of fishing vessel crews in 1992.
    We believe if the Coast Guard had the additional 
authorities requested in those recommendations, significant 
improvements in safety could result. The additional authorities 
of safety within the commercial fishing industry would be 
consistent with the authorities of other developed countries 
where standards have been put in place.
    In summary, Congress, the commercial fishing industry, and 
the Coast Guard have all worked to improve commercial fishing 
vessel safety, but there is still much work that can be done. 
We believe there are large gains that can be made through 
increased authority for crew competency measures, licensing 
requirements, and mandatory fishing examinations and 
inspections. We are continuously improving our posture to 
minimize the consequences of vessel casualties when they occur, 
and I am pleased to be here with the other professional 
national experts that are committed, the same as the Coast 
Guard, to protect the fishermen's lives and prevent the loss of 
vessels.
    Thank you, Mr. Chairman. I will answer any questions that 
you have.
    Mr. Cummings. Thank you very much, Rear Admiral.
    Dr. Jennifer Lincoln, National Institute for Occupational 
Safety and Health, Centers for Disease Control and Prevention, 
United States Department of Health and Human Services. Welcome.
    Ms. Lincoln. Thank you.
    Mr. Chairman and Members of the Subcommittee, my name is 
Dr. Jennifer Lincoln. I thank you for the opportunity to speak 
to you today. I am a U.S. public health service officer working 
for the National Institute for Occupational Safety and Health. 
NIOSH is the Federal agency responsible for conducting research 
and making recommendations to identify and prevent work-related 
illness and injury. I lead our commercial fishing safety 
research program in Alaska, and I am pleased to share our work 
with you today regarding how safety improvements implemented in 
the Alaskan fishing fleet could benefit other regions of the 
United States.
    From 1990 through 2006, there was significant decline in 
the number of commercial fishing fatalities in Alaska. We know 
that this decline is not solely a function of the reduction of 
the workforce because we observed a 51 percent decline in the 
fatality rate among commercial fishermen. The decline in 
fatalities is a result of improvements in safety. Commercial 
fishermen, the industry, the U.S. Coast Guard, marine safety 
organizations, and NIOSH have collaborated to improve safety of 
the Alaskan fleet.
    I will now briefly review four areas of opportunity for 
improving fishing vessel safety: preventing vessel loss, 
preventing fatalities due to falls overboard, preventing severe 
injuries due to deck machinery, and establishing marine safety 
training for all commercial fishermen. First I will discuss the 
prevention of vessel loss.
    Fifty-four percent of all fatalities in the fishing 
industry are due to the loss of a fishing vessel. NIOSH has 
recommended that a focus be placed on the prevention of vessel 
loss. The U.S. Coast Guard responded in Alaska by implementing 
the Dockside Enforcement Program in 1999. The program 
identifies and corrects safety and stability hazards known to 
exist on vessels, participating in the Bering Sea and Aleutian 
Island crab fisheries, historically the most dangerous 
fisheries.
    NIOSH evaluated the effectiveness of the Dockside 
Enforcement Program and found that the fatalities significantly 
decreased after implementation of the program. Similar dockside 
programs could be implemented in other hazardous fisheries 
across the Country.
    Next, the prevention of fatalities from falls overboard. 
Thirty percent of all fatalities among fishermen are due to 
falls overboard. NIOSH has found that although the overall 
fishing fatality rate has decline in Alaska, the rate for fatal 
falls overboard has not changed. Tailored prevention strategies 
are required to prevent falls overboard from occurring in the 
first place. These prevention strategies should be specific to 
each fishing gear type and each hazard, such as an entanglement 
or weather.
    NIOSH has made additional recommendations to prevent 
drowning after a person falls overboard. We have recommended 
that all fishermen wear personnel flotation devices, or PFDs, 
when on the deck of any vessel. There are more types and styles 
of PFDs available now than ever before. NIOSH is planning a 
field study with commercial fishermen to identify available 
PFDs having features that fishermen like and will use.
    Next, the prevention of severe injuries. NIOSH has found 
that, in Alaska, a fisherman was hospitalized for an injury 
once every 10 days. Many of these injuries were attributed to 
being entangled or struck by gear or being trapped in deck 
equipment. Furthermore, efforts are required to prevent 
injuries on deck, including the redesign of machinery or the 
retrofitting of safety features on existing fishing equipment.
    NIOSH has worked with fishermen to identify better 
equipment design and safer work practices. We continue to 
identify other deck hazards with the intention of engineering 
safer designs.
    Lastly, I will discuss marine safety training. Research 
suggests that individuals involved in a disaster are more 
likely to respond appropriately to save their lives if the have 
had emergency training. NIOSH has found that those people who 
died in commercial fishing vessel sinkings were less likely to 
use survival gear and less likely to have had safety training 
when compared to survivors of these events.
    NIOSH has previously recommended that basic fishing safety 
training be completed before crew license or fishing permits 
are issued.
    In summary, substantial progress in improving safety has 
been made in Alaska's most hazardous industry. The activities 
that have occurred in Alaska provide a blueprint to improve 
safety elsewhere in the United States. The written testimony we 
submitted contains many more details regarding this.
    NIOSH plans to continue to support the safety of the 
commercial fishing industry by assisting in research and 
evaluation of interventions across the Country to prevent 
vessel loss, to prevent fatalities due to falls overboard, to 
prevent severe injuries due to deck machinery, and to establish 
marine safety training programs for all commercial fishermen.
    NIOSH recognizes that our efforts are most effective 
through collaboration, and we look forward to continuing our 
partnerships with fishermen, the industry, the U.S. Coast 
Guard, and marine safety organizations.
    Thank you for the opportunity to testify to you today. I am 
pleased to answer any questions that you may have.
    Mr. Cummings. Thank you very much, Dr. Lincoln.
    Jerry Dzugan, Executive Director, Alaska Marine Safety 
Education Association. Welcome.
    Mr. Dzugan. Thank you. Good morning, Mr. Chairman and 
Members of the Subcommittee. Thank you for this opportunity to 
speak.
    I fish commercially in Alaska both as a vessel owner and a 
crew member. I have been personally involved with bringing or 
facilitating over 1,000 safety workshops around Alaska and 
other coasts of the U.S., in my work with the Alaska Marine 
Safety Education Association, or AMSEA. I was a member of the 
original Coast Guard Fishing Vessel Safety Advisory Committee 
and am now its chairman. Since the Commercial Fishing Safety 
Act of 1988 was implemented, there have been 306 fishing 
fatalities in Alaskan waters. Some of these fishermen I counted 
among my friends and neighbors, so fishing vessel safety is a 
personal, not an abstract, issue with me, as it is for many 
other fishing families.
    But there has been a real change in the safety culture in 
some parts of the Nation. Before the Act was implemented, an 
average of 43 fishermen died every year in the first five 
years, from the late 1980s to the early 1990s. However, the 
most recent five-year average saw an average of just 10 
fishermen dying every year. That is not to minimize that there 
were just 10 fishermen, but that rate has gone down 77 percent 
if you compare those two five-year periods. NIOSH has 
calculated that 250 deaths have been prevented in Alaska alone 
as a result of the Safety Act.
    I believe that there are several reasons for this progress 
in Alaska. One, there has been an effort in Alaska to enforce 
the regulations equally and systematically. Coast Guard 
personnel have been reasonable but firm regarding how these 
regulations have applied. In addition, alternative compliance 
to regulations has been negotiated with some fleets that has 
actually increased the overall level of safety, and this has 
been actually welcomed by the fleet. But regulations have not 
been enforced equally throughout the U.S., and this is the main 
reason why the training infrastructure, which started in the 
early 1990s, no longer exists in some regions of the Country.
    Secondly, studies conducted by NIOSH and others have 
documented again the positive effects of safety training that 
has had on survivability after a sinking. Training 
organizations such as AMSEA, North Pacific Fishing Vessel 
Owners Association, Sea Grant, and other private trainers 
maximize survivability in the event of a casualty, but also 
prevent casualties by raising risk awareness among fishermen. 
AMSEA's grassroots training infrastructure would not have been 
possible without the support of the Alaska congressional 
delegation. But, again, this training infrastructure does not 
exist to this degree outside of Alaska and the Pacific 
Northwest.
    The experience gained in the last 20 years of this 
education effort will be invaluable if training is expanded. An 
emphasis on skills proficiency and competency should be a 
higher priority, however, than passing a written licensing exam 
and will be much better accepted by fishermen.
    Thirdly, the NIOSH field office in Anchorage started a 
surveillance system in the early 1990s. This office tracks 
fatalities and injuries and supports quality hands-on safety 
training. This surveillance method does not exist in the rest 
of the Nation.
    The two other issues the Safety Act sought to address are 
vessel inspections and licensing. Recommendations were made on 
vessel inspections and crew qualifications, but the Coast Guard 
was not given any additional authority in these two areas.
    As in the Chairman's analogy to issuing parachutes to 
airline passengers, the Safety Act focuses on survivability 
after a vessel loss. This is a reactive, not a proactive, way 
toward safety and preventing casualties. It is also extremely 
inefficient and costs the taxpayers millions of dollars--just 
one search can cost over $1 million--plus, high-risk operations 
to helicopter crews trying to make rescues.
    The Safety Act also ``requires the Secretary to compile 
statistics concerning marine casualties ... from insurers of 
fishing vessels.'' These statistics don't exist in a format 
that anyone can use to make recommendations from.
    Currently, there is a rulemaking working its way through 
the Coast Guard. It will attempt to make emergency drills 
training more enforceable and address stability on some fishing 
vessels. Given that a fishing vessel is lost at sea almost once 
every three days, it is hoped that this proposed rulemaking can 
be expedited in a timely manner, but with enough time for 
comments by industry.
    One final point. The present regulations need two basic 
simple changes to give fishermen a level playing field. One, 
there is no reason why a 36-foot State registered vessel 
fishing next to a 36-foot federally registered vessel should 
follow a different set of regulations and be exempt from safety 
training, as now exists. Secondly, the so-called Boundary Line 
is a totally arbitrary line for fishing vessel safety 
requirements that bears no relationship to the risks found 
inside or outside its boundaries.
    Finally, fishing vessel safety has gone through a 
revolutionary process of improvement in the last 25 years, but 
not equally across the Nation. Many regions lack good 
statistics, equal enforcement, and training infrastructure. 
Until these discrepancies are addressed, we will continue to 
lose lives unnecessarily in commercial fishing.
    Until you feel comfortable with your son or daughter going 
commercial fishing, as you feel comfortable with them getting 
on a commercial airliner, we still have room for improvement in 
commercial fishing.
    Thank you for this opportunity to comment, and I would be 
happy to take any questions.
    Mr. Cummings. Thank you very much.
    It is my understanding that Congressman Frank will be here 
in any moment. When he does get here, we will have him provide 
his testimony, but, in the meantime, we will go forward with 
our questions.
    Admiral Bone, the regulations applicable to commercial 
fishing vessels have been on the books for over 15 years, and 
still less than 10 percent of the fleet take advantage of the 
voluntary dockside exam program the Coast Guard adopted in 
1991. Do you think this needs to be mandatory?
    Admiral Bone. Yes, Mr. Chairman. Our data and the testimony 
that was just given reflects that if there is a mandatory or an 
enforceable program in place, it does reduce the casualties. It 
has been proven over and over again.
    Mr. Cummings. So are you in any way surprised by that 10 
percent figure? In other words, do you see anything other than 
mandatory enforcement? So often, what happens around here, you 
know, folks don't like mandatory.
    Admiral Bone. Mr. Chairman, I will just tell you 30 years 
in the Coast Guard, any program that is purely voluntary, you 
are going to have the same 10 percent that are on the high end, 
willing and coming forward to have themselves examined, 
inspected, and they are probably going to exceed the standard, 
quite often, than just meet it. It is the ones that need it 
that will try to get away from the standard and/or avoid it. 
Unfortunately, our only mechanism, as was stated, was to 
enforce it at sea and terminate someone. That is an ineffective 
response.
    I can tell you that just a voluntary program alone doesn't 
result in statistics. I think an example where it has been 
successful here with Alaska has been an example where the State 
has been directly involved, other organizations and agencies 
have been involved, and the industries themselves have 
basically stepped up, and it is a very close-knit group. Not 
all of the fishing industry is that way around the United 
States. In Alaska there is a lot of centralization where there 
is an ability to do that, so that is a community effort. In 
places like Alaska and Maine we have seen some of that, but I 
don't think that it could be accomplished nationwide, based on 
our experience.
    Mr. Cummings. Congressman Frank, I said that as soon as you 
arrived we would hear from you. You can come forward, please. 
We look forward to hearing your statement. We want to thank you 
for requesting this hearing. I want to thank you for your 
interest and we want to know what it is that you want us to do 
to help address the issues that you are bringing to our 
attention.

TESTIMONY OF HON. BARNEY FRANK, A REPRESENTATIVE FROM THE STATE 
                        OF MASSACHUSETTS

    Mr. Frank. Thank you, Mr. Chairman. One of the things I 
want to talk about is the VMS, the Vehicle Monitoring System, 
which helps locate people. And I apologize for the fact that I 
was not wearing one today, because, if I was, I would have been 
here five minutes ago, instead of going to a different room and 
getting lost. I am sorry for that.
    Mr. Cummings. We will see if we can find you one.
    Mr. Frank. Thank you.
    [Laughter.]
    Mr. Frank. I really appreciate your responsiveness when I 
spoke with you. Last year, when the Congress rewrote the 
Magnuson Act, which governs fishing, I was pursuing some safety 
concerns, but there were jurisdictional issues, and I am sure 
you are pleased to know that your colleagues on the Resources 
Committee last year respected the jurisdiction of this 
Committee and noted that some of the things that we were 
talking about were Coast Guard related and, therefore, they 
were more appropriately done here.
    There was one major pro safety thing that was put into the 
Magnuson Act, namely, a requirement that when they do the 
fishing regulations_the National Marine Fisheries Service does 
the fishing regulations_they take safety into account. But for 
that fully to be done, there needs to be--and this is one of 
the key points--a role for the Coast Guard, and I hope that one 
of the things that we will see out of this is a mandate with 
this Committee and the Resources Committee go guarantee that 
there is significant ongoing Coast Guard input into the safety 
issues. I hope that we will see the National Marine Fisheries 
Service and the Coast Guard mandated fully to cooperate. They 
do cooperate some now, but particularly when there are crises.
    One of the leaders on fishing issues in my District, Deb 
Shrader, will be testifying later, and I did note in reading 
her testimony, her understandable, profound expression of 
gratitude to the Coast Guard for the degree to which members of 
the Coast Guard risk their lives to try to help deal with these 
terrible fishing accidents. We have had a couple of tragedies 
with fishing boats lost. They are fairly small boats out in 
pretty deep water in pretty bad weather, and that is inevitable 
to some extent. The fishermen are not complaining, they have 
voluntarily taken on one of the most dangerous jobs in America, 
but we can do better.
    Here are some specifics that I hope you will be able to 
address. One is a matter of safety training that ought to be 
axiomatic. We can do better. We have had some good volunteer 
efforts in safety training. I represent the City of New 
Bedford, which, along with the adjacent town of Fairhaven, 
brings in more dollars in fish caught, seafood caught, than any 
other port; scallops, but they do other deep sea fishing. The 
safety training has been helpful and the City of New Bedford 
has put some money in; they got some NOAA money and they got 
some of their own money. But one of the things we can do is to 
fund safety. We are not talking about even tens of millions of 
dollars, but a couple million dollars put into safety training.
    You know, there is a question about mandatory versus 
voluntary. I guess if some people feel if you physically force 
someone to take safety training, it is probably not going to do 
a lot of good, but the fishermen are smart and they understand 
the dangers, and they are ready to do this. So fully funding a 
volunteer training is important.
    The second issue that I wanted to stress is the one I just 
mentioned, namely, that working together, the two Committees 
make sure that the Coast Guard is given full opportunity to 
participate in the entity known as the Commercial Fishing 
Industry Vessel Safety Advisory Committee. It does seem that 
the Coast Guard ought to be very much involved with that.
    We would also like to be able to expand the dockside 
inspection. Right now, the Coast Guard mandates dockside 
inspection for those fishing vessels which carry observers. We 
have a program that NMFS does whereby people go out to observe 
to make sure that the rules are being addressed. These are kind 
of neutral people out on the fishing boats. It seems a little 
odd. What we do is we mandate safety when the observers are 
there, but not when the observers aren't there. The inference 
would be, I guess, that we are really only worried about people 
drowning if they are observers, not so much if they are 
fishermen, and that really is a kind of unintended invidious 
discrimination that we ought to get rid of. So it does seem to 
me that, in recognition of the importance of what the Coast 
Guard does, that the dockside inspections should be for all of 
the boats, not just those that have observers.
    Next, I mentioned the vessel monitoring system. I said 
vehicle because I am not by nature a fisherman; I have learned. 
You learn by your district. We are talking about vessels, not 
vehicles. These have a great potential. There was some 
resistance on the part of the fishermen originally because they 
were kind of like they told the Coast Guard where the fishermen 
were when they shouldn't be. But we think they have a greater 
potential for safety.
    There needs to be a development of the technology so they 
can be used fully for safety. For example, one of the things we 
want to do is this. You are given a limited number of days when 
you can fish. You are out there fishing and the weather turns 
bad. A prudent captain decides to go back to port, but a couple 
years ago, if you did that, you would lose those days. The day 
you spent steaming back to port would be taken away from you, 
so that you had people saying, well, I will take the chance, 
because this is their livelihood. We want to make sure that if 
you break off a trip for reasons of safety or maybe because 
someone has developed appendicitis on the crew, that you are 
not charged with that as a fishing day. But to be able to do 
that, we need to be have complete monitoring of where the 
vessel is, and we think that you can improve the quality of the 
VMS. If you can improve the quality of the VMS and have total 
confidence in it, then you can make sure that no incentive is 
given for the captain to be fishing when safety says get out of 
there.
    We would also like to see a national safety research 
program to deal with people, including in academia. The 
University of Massachusetts branch in Dartmouth, Massachusetts, 
does wonderful work on fishing, and this is an area where our 
universities could significantly improve things.
    Two more. One, right now, fishing vessels above 79 feet in 
length have to meet stability and watertight integrity 
standards. In that sense, I suppose we are trying to emulate 
them. I haven't seen, in the various ethics proposals, any 
requirement that we be stable, but watertight integrity does 
appear to be one of the obligations we will be undertaking. I 
don't know if the Coast Guard will be inspecting Members of 
Congress to make sure we have watertight integrity, but we do 
have a question about fishing vessels below 79 feet. Now, I 
understand the Coast Guard is working on proposals to work in 
that direction. We strongly urge that this be done.
    I will say I have spoken to some Members, including, for 
instance, our colleague from Alaska, Mr. Young, who is a man of 
considerable fishing experience and interest. He is more 
skeptical of the smaller boats being done. One of the things 
that it seems to me we could do, what we talked about last 
year, is let there be regional variations. We have regional 
variations in fishing, we have the various fishing councils. In 
the region I represent, a very important fishing region in the 
Northeast, we think it is very important to extend the 
inspection downward, and it may be based on anybody whose 
permit goes a certain way. But cutting it off at 79 feet, not 
inspecting the boats below 79 feet doesn't make sense. I know 
the Coast Guard is working on this, and I hope they will be 
able to resolve that. Obviously, if they needed any legislative 
authority, I would hope you would give it to them. They tell me 
they don't.
    Finally, the fishing vessels now have to conduct monthly 
safety drills, but there is no requirement that those be 
logged. I think that would be very helpful, to require that 
they be logged.
    That is it. I appreciate your hearing later from--I don't 
think she has arrived yet--Deb Shrader, who has been very 
active in fishing and is the wife of a fishing captain. This is 
an area obviously that is not ideological, it is not partisan. 
I think there is a universal commitment here. I do want to 
acknowledge the very good work the Coast Guard has done, and we 
say this not in criticism, but building on the work they have 
done where we think we can go further.
    I thank you for listening.
    Mr. Cummings. Thank you very much, Congressman.
    Any questions, Mr. LaTourette?
    [No response.]
    Mr. Cummings. Any questions of any member of Congressman 
Frank?
    [No response.]
    Mr. Cummings. With that, thank you.
    Mr. Frank. Thank you. I do notice that Deb Shrader, who has 
accommodated us by coming down here and who is a great resource 
for the fishing industry, has joined us. I did want to 
acknowledge her presence. She is a very thoughtful and 
intelligent source of information here, and I urge the 
Committee to pay very serious attention to what she says, and I 
thank you.
    Mr. Cummings. We anxiously look forward to hearing from 
her. Thank you again.
    I want to resume my questions of you, Admiral Bone. We 
understand that there is a package of regulations on a variety 
of subjects, and I have made it clear to Admiral Allen that we 
are concerned about quite a few regulations. But in those are 
included stability for vessels of less than 79 feet; training 
requirements for emergency suits. We understand that is working 
its way through the agency, but still must clear the Department 
and the Office of Management and Budget before a notice of 
proposed rulemaking can be published.
    Some of these regulations, as you well know, have been 
pending since 1992. That is a long time. What is the situation 
there, can you tell us about that?
    Admiral Bone. Yes, sir. I can tell you, Mr. Chairman, that 
the regs, just as you said, are going through their final 
review. They will incorporate the issues that Congressman Frank 
mentioned, many of the issues that he mentioned, including the 
training, the record keeping, as well as the stability issues. 
We believe strongly that vessels between 50 and 79 feet, 
looking at the data and now over time, being able to verify 
that those vessels in fact are the ones at highest risk because 
they are going out into the deeper waters. Basically, they are 
going further offshore, and they have significant stability 
issues, as well as construction and maintenance issues that 
apply to it.
    I can't make any excuses with regard to not having the 
regulations to you earlier other than this is an industry that 
we needed to actually develop an understanding of. As you said 
earlier in your opening statement, is it an issue of the vessel 
itself or is it the operating area, or is it a combination 
thereof? We wanted to make sure that, again, due diligence in 
this process, that we only bring forward regulations where they 
are really required. We have worked closely with the Commercial 
Fishing Vessel Industry Safety Committee in order to establish 
where those thresholds lie. Those regs, where the law allows, 
will be put forward to you. Obviously, we are still constrained 
by the law in order to address some of the other issues that we 
think could in fact improve the safety as well.
    Mr. Cummings. Well, let's go back to that for a moment. Do 
you have any idea when we will move this? Let me tell you why I 
am saying that. I tell my kids that life is like a basketball 
game, with a clock up in the corner, and we are on the court. 
At some point the clock is going to run out, and while you are 
on the court, you better play the best game you have got.
    We have a limited amount of time to occupy these positions 
and you have a limited amount of time to occupy yours, so, 
before the clock runs out on us, I need to have an idea of when 
we are going to get this done, because I have been looking at 
the regulations that have been pending, and I have got to tell 
you it is not satisfactory. It just isn't. We can do better and 
we need some timetables.
    Admiral Bone. Mr. Chairman, we expect the notice of 
proposal to go going forward and be presented to the public in 
late summer, early fall.
    Mr. Cummings. Late summer or early fall. Well, why don't we 
do this. Why don't we try to bring you back in September, 
sometime in September, and see where we have gotten with regard 
to the regulations? It might be a short hearing or it may be a 
long one.
    Admiral Bone. I understand.
    Mr. Cummings. But I would love to have that because this 
clock is ticking and I want to make sure we get that done.
    The Coast Guard authorization bill that passed the House 
last year, including a provision establishing design, 
construction, and maintenance standards for the American 
Fisheries Act replacement vessels, do you believe that the 
establishment of such standards increases the safety of these 
vessels?
    Admiral Bone. Yes, sir. Again, vessels that meet at least 
established standards with regard to both construction and 
stability requirements will in fact provide for increased 
safety.
    Now, I just want to add one thing. It is not just building 
it that way; you have got to maintain it that way as well. And 
then you have to operate within the constraints of your 
stability requirements.
    Mr. Cummings. I am going to ask just one more question, 
then I want to let my colleagues get their questions in.
    Dr. Lincoln, it appears that the Coast Guard's aggressive 
comprehensive dockside enforcement program has been effective 
in reducing vessel casualties in some Alaska fisheries, 
specifically the crab fishery. Is there any reason that you are 
aware of that explains why the Coast Guard has not instituted 
the same kind of comprehensive dockside enforcement program in 
other regions of the Country?
    Admiral Bone. Yes, Mr. Chairman. First, one of the ways 
that this has been extremely helpful is that----
    Mr. Cummings. I had asked Dr. Lincoln.
    Admiral Bone. Oh, I am sorry.
    Mr. Cummings. But, since you are so anxious and excited, we 
wouldn't want to deny you this opportunity. You are pumped up. 
Must have been that clock ticking, huh?
    [Laughter.]
    Admiral Bone. I apologize, Mr. Chairman.
    Mr. Cummings. That is all right. Go ahead.
    Admiral Bone. My only observation in particular for the 
Coast Guard, since it was how the Coast Guard has been 
effective in there, I think the issue is, again, the State has 
basically put in place a mandate that before they get underway 
in that particular fishery, for their fishing permit--I will be 
corrected, Doctor--is they have this examination conducted, 
which in fact makes it mandatory, versus voluntary, in order to 
get their fishing permit. So that is one of the major factors, 
in addition to the efforts by my colleagues to my left in 
actually engaging in the training program and providing 
professionals to do it.
    Mr. Cummings. Doctor, another question to that one, are 
there any other measures that should be taken to prevent vessel 
loss?
    Ms. Lincoln. Now, that is a big question. Regarding the 
preseason activities that the Coast Guard implemented in Dutch 
Harbor prior to the Bering Sea and the Aleutian Island crab 
fisheries, when that was started, it was October of 1999, and 
this was an initiative that the Coast Guard started there and 
was not a requirement of the State at that time. NIOSH had 
shown that the Bering Sea crab fleet had the highest fatality 
rate of any fleet in the State, and the Coast Guard accompanied 
the State biologists when they were doing their crab check, the 
tanks, to see if the tanks were full. To see if the tanks were 
empty, actually. When they boarded the vessels, they would ask 
the skippers to see their stability information and issue a 
captain-of-the-port order if the vessels were either loaded 
incorrectly or if their survival equipment was not well 
maintained or present.
    To answer the question of whether or not--I can't remember 
if it was whether or not other fisheries should be involved or 
if----
    Mr. Cummings. Other measures that should be taken to 
prevent vessel loss.
    Ms. Lincoln. To prevent vessel loss, NIOSH has recommended 
previously that more stability requirements be explored, and 
certainly I think that expanding the preseason enforcement 
programs of other identified fisheries that have high fatality 
rates, to check their safety and stability prior to them going 
to sea, also would be helpful.
    Mr. Cummings. Mr. LaTourette.
    Mr. LaTourette. Thank you very much, Mr. Chairman.
    Thank you all for your testimony.
    Just to follow up on the Chairman's last question getting 
into structural matters and design, either Admiral or Dr. 
Lincoln or Mr. Dzugan, would requirement of load lines on 
fishing vessels assist in this endeavor?
    Admiral Bone. A load line alone won't solve the problem. I 
think the issue is people just being aware of the stability and 
the load that they are actually placing on their vessel. 
Sitting on a vessel, if the vessel is large enough, a load line 
is helpful. But, again, you have got to understand the basic 
stability issues and the sea state that you are in and your 
loaded condition--that can vary over time--as well as these 
vessels that operate in the north, how quickly they can ice up 
and take preventive measures to get out of that region or to 
understand when they are in harm's way and they need to take 
corrective action. The problem predominantly is these vessels 
are almost instantaneously rolling over because they haven't 
done anything leading up to it and they don't really understand 
the design of their vessels, and then they also haven't 
practiced what to do in the event of these situations if they 
become aware of them. That is what the real issue is here, 
having the capacity and capability to intervene and having 
satisfactory interventions. The load line, again, is helpful, 
but on smaller vessels--we are talking about some of these 
vessels that are 50 feet, not real large vessels, so a load 
line in and by itself is not that significant.
    Mr. LaTourette. I think Chairman Frank always makes 
excellent points, and of his excellent points in his remarks I 
think this whole notion of the tension between the number of 
days you are permitted to fish versus safety. That should 
really never be a consideration, I think. I assume you would 
echo, that his notion if somebody has to abort a fishing trip 
because it is not safe, that that shouldn't be counted against 
their time at sea.
    Admiral Bone. Congressman, if I had it my way, it would 
never count against their time at sea. Safety of the crew, 
safety of the environment--you know, some of these vessels are 
fairly large and spill oil, etc., in the environment. But 
safety has to be the paramount issue here.
    I can tell you that the National Marine Fisheries Service 
has made adjustments to what were derby days, so to speak, and 
extended periods of time in various fisheries that have had a 
market improvement in people making those determinations. The 
Coast Guard is working with the fishing councils to basically 
look to improve those same opportunities, and where we are 
engaged is just on that issue of safety and trying to make sure 
that safety is put forward as paramount.
    Mr. LaTourette. Mr. Dzugan?
    Mr. Dzugan. If I may, would it be so easy as to make a 
simple black and white determination about what is a safe sea 
condition. A safe sea condition for a 36 foot vessel and a 79 
foot vessel are quite different. So, realistically, it is kind 
of a hard thing to implement.
    I just wanted to make that comment.
    Mr. LaTourette. Okay. I appreciate that.
    Admiral, my last question has to do with some regulations 
that have already been put into place. Pursuant to 46 U.S.C. 
4502 and 4503, certain fishing vessels that have entered into 
operation and were substantially altered after September the 
15th, 1991 were required to have additional safety requirements 
and stability requirements. Does the Coast Guard keep 
statistics of what percentage of the U.S. fishing fleet now 
falls into that post-September 15th, 1991 category?
    Admiral Bone. I am not aware of any specific statistics. I 
am not sure that we boarded the 80,000 vessels or all the 
vessels that are applicable to that. What we will do is we will 
look and see what is available and provide an answer for the 
record, sir, if that is acceptable.
    Mr. LaTourette. Sure it is, and I appreciate that. In my 
opening statement I mentioned the 2004 changes that the Coast 
Guard is now working on regulations for towing vessels, and 
just ask if you have some information on how the loss rates 
compare between fishing vessels, towing vessels, and those 
commercial vessels that are currently inspected.
    Admiral Bone. We will provide that as well, sir.
    Mr. LaTourette. Thank you.
    [Information follows:]
    [GRAPHIC] [TIFF OMITTED] 35915.007
    
    Mr. LaTourette. Thank you, Chairman.
    Mr. Cummings. Thank you very much, Mr. LaTourette.
    Mr. Taylor.
    Mr. Taylor. Thank you, Mr. Chairman.
    I want to thank our participants.
    Admiral, when you work up these recommendations, the only 
thing that I would ask is that the Coast Guard clearly 
distinguish in these requirements the difference between double 
digit waves off of Alaska in the middle of the winter and the 
bath-like water of the Coast of Louisiana and Mississippi 
during the summer, and the requirements that you are going to 
have for almost certain death if you are in the water for a few 
minutes in Alaska in the winter versus literally days to be 
recovered in the Gulf. My fear is if the Coast Guard 
overreacts, puts too many requirements on the industry, that 
what you will see is the sort of shift we saw in Congress in 
1994, where it went from too many regulations to a period of 12 
years where there were almost none. I would sure hate to see 
that happen. I do think there were some problems that you and 
Dr. Lincoln have pointed out that need to be addressed, but I 
know the response to too much regulation, and that is a period 
of backsliding where there is none. So I would just hope you 
would take those factors into account.
    Admiral Bone. We will, Congressman.
    Mr. Taylor. Thank you, Mr. Chairman.
    Mr. Cummings. Mr. LoBiondo.
    Mr. LoBiondo. Thank you, Mr. Chairman. Once again, a very 
good hearing.
    Appreciate the participation of our panelists today.
    For those of you who may not know or realize, I represent 
New Jersey's 2nd Congressional District, which includes Cape 
May, New Jersey, which is the second largest fishing port by 
value of landings on the East Coast and the fifth largest 
nationwide. On the East Coast, only Congressman Frank's 
district, New Bedford, outranks us.
    The industry employs thousands of fishermen who risk their 
lives to provide for their families, and I wholeheartedly agree 
that we should be taking steps to improve the crew safety and 
strongly encourage the Coast Guard to work with the industry to 
do just that.
    I just have a couple of questions on the crew survivability 
pilot program that is included in the legislative program for 
fiscal year 2008. That is, according to Coast Guard statistics, 
I believe something like 146 fishermen have lost their lives in 
District 17 from 1994 to 2004, I think by far the largest 
number of fatalities than anywhere else in the Country.
    Since this is the case, Admiral, can you explain or talk to 
us about why you are proposing to implement this program in 
Coast Guard Districts 1 and 8, ignoring District 17, where I 
think, according to your statistics, most of the fatalities are 
occurring?
    Admiral Bone. Yes, Congressman. As you said, it is a pilot 
program. The reason it is targeted at the areas that I will 
call the Northeast and the Gulf is our statistics, as we are 
looking at them, actually the trend in Alaska is significantly 
downward, to the point of very few casualties, actually, and 
loss of lives in that arena. The 1st District, as well as the 
8th District, however, are either stable or increasing. The 
Northeast Region is actually increasing; in fact, I think we 
have had seven deaths just this year in the region. So we know 
that that is an area, one, where we have limited and, as you 
said, it is a very broad fishing community, and we believe that 
without a mandatory program being in place in those regions, 
and because of how spread out and diverse they are, versus 
having a collective way to address them, that they will be most 
effective in those particular regions where they are needed.
    Again, this is a pilot program. It has got a sunset clause 
that is put forward in it. It is not a permanent program. But 
we intend to also prove whether or not what we have experienced 
in the 17th and in the State of Maine, where they have a 
similar type program as Alaska--not exactly, but similar--where 
we can be effective, and that is why we have chosen those 
areas.
    Mr. LoBiondo. Well, I certainly hope it is successful, and 
I hope you are talking to the industry. One of the concerns is 
that while the Coast Guard is extremely well intentioned, as 
was discussed by some of the panel earlier about the limited 
number of fishing days available, if the Coast Guard comes in 
48, 72 hours before the time that the vessel is to go out and 
then, you know, they have to stay tied up at dock while they 
are missing fishing days. If they have got enough notice, I 
think the industry certainly wants to cooperate, but I really 
hope that we can make sure that we are understanding the 
realities of life for these folks.
    Admiral Bone. Yes, sir. And we re also working closely with 
the Commercial Fishing Vessel Industry Safety Advisory 
Committee as we go forward and develop those standards.
    Mr. LoBiondo. Thank you, Mr. Chairman.
    Mr. Cummings. Thank you.
    Mr. Larsen.
    Mr. Larsen. Thank you, Mr. Chairman. Thank you this hearing 
and an opportunity to ask some questions. Coming from 
Washington State's 2nd District, we have got a few small towns 
with fishermen memorials with names on them, so it is clearly 
an important topic for people in my district, but also 
important too because Northwest Washington is the base for a 
lot of the North Pacific fishing fleet as well, between 
Seattle, north into Alaska. There are a few folks who make a 
living from commercial fishing in the North Pacific, so it is a 
pretty important hearing for folks back home as well.
    So I have a few questions, first for Dr. Lincoln. Your 
report covers commercial fishing vessel safety looks like to be 
in the aggregate, as opposed to breaking it out by industry. Is 
that right or not? By fishery as opposed to all fisheries.
    Ms. Lincoln. Well, we have looked at all fisheries in 
Alaska, but I think, in order so that we are not trying to make 
a one-size-fits-all approach for fishermen in the Gulf of 
Mexico versus Bering Sea crab fishermen, it is important to 
look at hazards specific to fisheries.
    Mr. Larsen. This gets to my next question, then. Does your 
data indicate a different level of hazard by fishery in the 
North Pacific?
    Ms. Lincoln. Yes.
    Mr. Larsen. It does.
    Ms. Lincoln. Yes, it does.
    Mr. Larsen. So can you give me a rating based on a standard 
of the per 100,000?
    Ms. Lincoln. Certainly. Depending on which fishery we are 
looking at, in 1997 we published a report breaking it down by 
shellfish versus salmon versus herring, if I can find these 
numbers----
    Mr. Larsen. We will take that for the record.
    Ms. Lincoln. Okay.
    Mr. Larsen. That would be great.
    Ms. Lincoln. I would be happy to provide the most recent 
information that we have.
    Mr. Larsen. Could you do that?
    Ms. Lincoln. Yes.
    Mr. Larsen. We would appreciate that. So we will take that 
for the record.[Information follows:]
[GRAPHIC] [TIFF OMITTED] 35915.008

    Mr. Larsen. Mr. Dzugan, with regards to this question about 
different fisheries and so on, how many fisheries have you 
fished in in your life?
    Mr. Dzugan. Two.
    Mr. Larsen. Which ones?
    Mr. Dzugan. Halibut long-lining and salmon trolling.
    Mr. Larsen. Okay. Representative Frank, earlier in his 
testimony, indicated his conversation with Mr. Young regarding 
the less than 79 foot regulation, the 50 foot to 79 foot 
regulation, and whether or not there is a full applicability to 
apply to stability rules. I think that is what he said. So 
there might be some need for variation. Do you have a thought 
on that?
    Mr. Dzugan. From the stability courses I have done, 
including the National Cargo Bureau's course, and working with 
larger ships, the rule is the smaller the vessel, the tighter 
the stability constraints become. So, as a general rule, if you 
are talking about vessels under 79 feet, it is more difficult 
to achieve the same stability standards.
    Mr. Larsen. And why is that?
    Mr. Dzugan. Less free board is one big thing. Basically, 
you have got the same kind of fishing operation crammed into a 
smaller and smaller space, so you have perhaps smaller freeing 
ports onboard.
    Mr. Larsen. Let me ask you this. Would you have a variation 
in size of ship in any one fishery, say the crab fishery or the 
halibut? Would you have a variety of sizes involved?
    Mr. Dzugan. Yes.
    Mr. Larsen. Doing the same activity?
    Mr. Dzugan. Absolutely.
    Mr. Larsen. As opposed to the catcher boats who are 
supplying larger processing ships or onshore processing 
facilities?
    Mr. Dzugan. In some fisheries you would have a big 
difference between the size of the vessel. In other fisheries 
they would be more consistent in size.
    Mr. Larsen. More consistent in size.
    Mr. Dzugan. So it depends on the fishery.
    Mr. Larsen. So it does depend on the fishery.
    Admiral Bone, do you have a thought along this line of 
questioning?
    Admiral Bone. Yes, I do. I think the issue is actually is 
the vessel built with stability in mind. And then when you get 
a stability letter, it gives you the constraints on how you 
load that vessel.
    Mr. Larsen. Right.
    Admiral Bone. Then you have to basically adhere to that. 
But we have got to be careful that----
    Mr. Larsen. And this is the issue that all of the popular 
books written about capsized crab boats have been written 
about, this very issue, how you load these.
    Admiral Bone. Yes, sir. Where you place the weight and how 
you move the weight. What I want to offer, though, is too much 
attention is placed on just the length. The reason why we are 
looking at those is because of the casualty data. That is 
reactive. The reality is if we get ourselves into this length 
criteria too closely, we have already seen vessels that are 36 
foot long and then they make themselves 36 foot wide just so 
they can be under the regulation and not have to meet different 
standards, or make themselves almost round so that they can 
carry more in the same area in order to avoid certain 
regulations. So we are working very closely with, again, the 
fishing advisory council, to make sure that, as we approach 
this, we approach it in a sound way. We are working with the 
industry leaders as well so that we don't have this reaction to 
it. Again, we are targeting based on historical data.
    Mr. Larsen. Right.
    Admiral Bone. If everybody started making their ships 
different ways and we had stability problems with them, we 
would be pursuing it even to a lower level, and we don't want 
to encourage that.
    Mr. Larsen. Right. Good. Good.
    Thank you, Mr. Chairman.
    Mr. Cummings. Just a few more questions.
    Dr. Lincoln, the testimony with regard to safety training 
and the effect of that training, it is interesting that it has 
a significant effect, from what you all have seen, is that 
right? Why do you think that is?
    Ms. Lincoln. Because people are trained to react to an 
emergency. Survival experts have documented that people who 
have training and know what to do will react in a manner to 
save their lives. So it is the effect of hands-on training that 
is available to Alaskan fishermen that actually puts them in 
survival suits, puts them in life rafts, enables them to I 
guess develop the muscle memory of knowing and being able to 
effectively save their lives and abandon their ship when they 
need to.
    Mr. Cummings. Mr. Dzugan, in your written testimony you 
commented on this extensively. The natural inclination is to 
try to save yourself. A lot of people don't know how to save 
themselves, so this gives them a way to carry out that which 
would be a natural self-survival kind of way. Is that a fair 
statement, Mr. Dzugan?
    Mr. Dzugan. Thanks for asking me that. It is a subject 
really close to my heart. People tend to react in an emergency 
the way they are trained, and if they haven't been trained in 
how to react to an emergency, most people, according to 
statistics, about 75 percent of them become the dumb sheep; 
they don't know what to do. In the Oklahoma City bombing, one 
person was found under a desk putting on their makeup because 
that is what you do. Somebody else was sorting their desk 
because that is what you do when you leave the office.
    So I believe the survival training does two things: like 
Dr. Lincoln said, it gives people that automatic reaction of: 
this is what I do in a sinking; I grab my suit or the life 
raft; I am not overwhelmed with choices here, I have only got 
two of them. The second thing the training does that is very 
important is it makes somebody realize that this could happen 
to them. Right now, in this building, we are on the first 
floor. I think I can find my way out. But if we were to go on a 
second or third floor, if I were just to come to this hearing 
room and not had thought about how I would exit here, in an 
emergency I probably wouldn't know which way to go.
    Mr. Cummings. You know, when they had this unfortunate 
incident happen in Virginia, the shooting incident--I am sure 
you may have seen this--they said one young man was pretty much 
bleeding to death, but he had the wherewithal to take the shirt 
or something and tie it around his leg or wherever he was 
bleeding, and he basically saved his own life. I guess that is 
the same kind of concept you are talking about.
    Mr. Dzugan. Yes, exactly. And I would bet that he had seen 
a lot of that on TV. He learned that from someplace, he didn't 
just create that on the spot.
    Mr. Cummings. That leads me to my last question. Maybe it 
is a whole different kind of phenomena going on here, but 
should training in such things as seamanship, stability, 
collision prevention, navigation, firefighting, damage control, 
personal survival, emergency medical care, and weather be 
required for operators of commercial fishing vessels that 
operate more than three nautical miles from shore?
    Mr. Dzugan. Yes. I think you could make a very good 
argument from statistics and from studying NTSB and Coast Guard 
reports and doing interviews with survivors that anyone who 
goes to sea should have some minimal amount of survival 
training and should be able to demonstrate proficiency in that.
    Mr. Cummings. Dr. Lincoln, what is your opinion on that?
    Ms. Lincoln. NIOSH has found that people who have had 
survival training are more likely to survive a vessel sinking.
    Mr. Cummings. All right, any other questions?
    [No response.]
    Mr. Cummings. Thank you all very much. This has been 
extremely helpful. We may be following up with a few questions 
in writing. Thanks again.
    Would our next panel come forward? Ann Backus, Robert 
Baines, Leslie Hughes, Captain Blaine Collins, and Deb Shrader.
    Thank all of you for being with us this morning. We will 
first hear from Director Ann Backus, Director of Outreach, 
Department of Environmental Health, Harvard School of Public 
Health. Thank you for being with us.

 TESTIMONY OF ANN BACKUS, DIRECTOR OF OUTREACH, DEPARTMENT OF 
 ENVIRONMENTAL HEALTH, HARVARD SCHOOL OF PUBLIC HEALTH; ROBERT 
BAINES, FISHERMAN AND CHAIRMAN, MAINE COMMERCIAL FISHING SAFETY 
   COUNCIL; LESLIE HUGHES, EXECUTIVE DIRECTOR, NORTH PACIFIC 
FISHING OWNERS ASSOCIATION, FORMER MEMBER OF COMMERCIAL FISHING 
 INDUSTRY VESSEL SAFETY ADVISORY COMMITTEE; CAPTAIN BLAINE E. 
 COLLINS, VICE PRESIDENT AND REGIONAL MANAGER N/S AMERICA, DET 
   NORSKE VERITAS; AND DEB SHRADER, SHORE SUPPORT, INC., NEW 
                     BEDFORD, MASSACHUSETTS

    Ms. Backus. Thank you. Good morning, Chairman Cummings, 
Ranking Member Mr. LaTourette, distinguished Members of the 
Committee. Thank you for your interest in this important topic 
and for this opportunity to provide testimony on commercial 
fishing safety. My name is Ann Backus. I am instructor of 
occupational safety and Director of Outreach for the Harvard-
NIOSH Education and Research Center at the Harvard School of 
Public Health. I serve on the Maine Commercial Fishing Safety 
Council.
    Memorial monuments to fishermen along the East Coast attest 
to the hazards of fishing. They speak not only of the 
individual fishermen, but of the families and the communities 
of fishermen deeply affected by those lost at sea. Statistics 
also tell us of the hazards. In 2004, the fatality rate for 
fishermen was 20 times that of the United States national 
fatality rate for all workers. During the nearly 20 years since 
the passage of the Commercial Fishing Industry Vessel Safety 
Act of 1988, there has been a reduction in fishing fatalities. 
But we have more work to do to make fishing safer, to save 
lives, and to save vessels.
    I would like to speak to two of the many concerns 
associated with commercial fishing: first, the need for 
regulatory parity between federally documented fishing vessels 
and State numbered vessels; second, the need for training and 
certification of competency in various fisheries.
    First, parity. Fishermen on State numbered vessels are at 
greater risk than those on federally documented vessels when 
fishing beyond the Boundary Line. Whereas, federally documented 
vessels fishing beyond the Boundary Line are required to have 
basic equipment such as anchors and VHF radios, State numbered 
vessels do not. Whereas, documented vessels are required to 
have a variety of safeguards, including bilge alarms, bilge 
systems, a high water alarm for vessels over 36 feet, and 
monthly safety drills, State numbered vessels are not.
    Without these requirements, the crews of the State numbered 
vessels are at greater risks in all types of emergencies: 
flooding, medical, capsize, man overboard, fire, etc. They will 
probably not have donned immersion suits, set off flares, or 
practiced abandoning ship. Moreover, their capacity for self 
rescue is limited; they rely on the Coast Guard for their 
rescue and survival. The risk to both the fishing crew and the 
Coast Guard could be reduced if the requirements for State 
numbered vessels matched those of documented vessels fishing 
right beside them.
    Recently, the Maine Commercial Fishing Safety Council under 
Chairman Bob Baines designed a fishing safety matrix based on 
the Fishing Safety Vessel Act and a consensus of what 
constitutes best practice. Initially, we replaced the Boundary 
Line with three zones, working seaward from the three mile 
line. Currently, our discussions are centered around using only 
the three mile line, which, when coupled with removing the 
distinction between documented and numbered vessels, simplifies 
the regulations dramatically and increases safety.
    Secondly, training and competency. When I participated with 
the Coast Guard and the Maine Marine Patrol in the harbor 
visits and dockside exam in South Hartwell last June, we helped 
an elderly fisherman and his wife into their Harpswell 
immersion suits and into the water for the first time in their 
long fishing careers. On the same day, another fisherman told 
me he realized he should have completed the dockside exam years 
ago. These responses are typical. Clearly, dockside exams and 
training and practice are needed.
    The Maine Commercial Fishing Safety Council has stepped up 
safety training. As of February 1, 2007, all fishermen in the 
lobster apprentice program must complete the U.S. Coast Guard-
approved drill conductor course. This is an industry-driven 
initiative that lays the groundwork for a culture of safety in 
Maine.
    The public health perspective emphasizes prevention. We 
need to make prevention a priority in the fishing industry and 
educate fishermen to take steps early to arrest the cascade of 
events that lead to injury and loss. The occupational safety 
perspective focuses on the work environment, work practices, 
and human factors. Fishery-specific education and training can 
address these concerns. Maine mandated a fishery-specific 
course for urchin divers in 1994 after eight divers died in the 
prior five years. There have been no diving deaths since 1994.
    Training and regulation need to go hand-in-hand. Training 
provides, in large part, the incentive for regulatory 
compliance and instills a prevention mind-set.
    Going forward, there may be a role for State legislation to 
support fishing safety, and certainly there is a role for 
industry-driven initiatives such as the Maine Commercial 
Fishing Safety Council. Partnerships and collaborations with 
the Coast Guard should be fostered because the safety of the 
fleet and the vitality of the industry depend on our ability to 
work together.
    Thank you for your attention. I would be pleased to respond 
to your questions.
    Mr. Cummings. Thank you very much.
    Robert Baines, who is a fisherman and Chairman of the Maine 
Commercial Fishing Safety Council. Thank you for being with us.
    Mr. Baines. Congressman Cummings, distinguished Members of 
the Committee, I would like to thank you for the opportunity to 
speak with you today on a subject that I live with as a regular 
course of doing my job. My name is Bob Baines, and I am a 
lobster fisherman from mid coast Maine. I am Chairman of 
Maine's Commercial Fishing Safety Council, a board member of 
the Maine Lobstermen's Association, and president of the Spruce 
Head Fishermen's Co-op.
    I have commercially fished my entire adult life, owning and 
operating my own boats for over 25 years. I am primarily an 
inshore lobsterman, but I have extensive history as a scallop 
fisherman, as well as experience working on groundfish boats 
throughout the Gulf of Maine.
    As we all know, commercial fishing is a dangerous 
occupation that threatens fishermen's lives and property on a 
daily basis. As a fisherman, I have personal knowledge of the 
danger and subsequent consequences of operating a fishing 
vessel and the inherent risks challenging Mother Nature.
    I had the unfortunate experience of participating in a 
search and rescue for two local teenage boys. These aspiring 
young fishermen, lacking in experience, were in a boat that was 
inadequate for the weather conditions. Their boat capsized and 
both drowned in cold April waters. We found one of the boys 
washed ashore on an island and I found the other boy the next 
day still in the water. I will never forget that unnecessary 
tragedy.
    I realize that not all risk can be removed from commercial 
fishing, but there are some things that can still be done that 
would increase the safety of commercial fishermen without 
burdensome and expensive regulations.
    Maine's Commercial Fishing Safety Council recently 
recommended and spearheaded the implementation of safety 
training as a component of Maine's lobster apprentice program. 
Beginning in January of this year, all fishermen enrolled in 
the apprentice program, over 1,000, are required to complete 
the U.S. Coast Guard-approved drill conductor course before 
they can get a commercial lobster license. If the two young 
boys I mentioned earlier had participated in safety training, 
their lack of judgment and dire consequences might have been 
different. Commercial fishing safety training by all commercial 
fishermen is a goal of Maine's Commercial Fishing Safety 
Council, and I encourage this Committee to help make that goal 
a reality.
    As Maine's near-shore fishing fleet, which numbers in the 
thousands, has grown and upgraded, the issue of parity between 
State registered vessels and federally documented vessels is a 
concern. It makes no sense to have two sets of rules, one for 
State registered boats and a second for federally documented 
boats. If a vessel is required to have specific safety 
equipment, then common sense would tell you that all vessels of 
the same size and operating the same distance from shore should 
require the same safety equipment. Current Federal law 
prohibits States from enacting commercial fishing safety 
requirements. The danger is the same whether you are State 
registered or documented.
    When the Commercial Fishing Industry Vessel Safety Act of 
1988 was passed, the Maine Lobstermen's Association was opposed 
to any kind of safety requirements for State registered boats. 
Times have changed and the Maine Lobstermen's Association and 
other industry organizations recognize that the Commercial 
Fishing Safety Act of 1988 has saved lives and further 
recognizes the importance of safety regulations for all 
commercial fishermen.
    Federal preemption prohibits States from enacting and 
enforcing fishing vessel safety regulations. Why shouldn't 
States have the ability to protect their citizens as the 
Federal Government does? States should be given the option and 
authority to enforce safety regulations in State and Federal 
waters. Sensible and easily understood safety regulations would 
promote compliance.
    Maine wants to adopt commercial fishing safety regulations. 
Maine's fishing industry supports this objective.
    The second issue I would like to bring to your attention 
today is the Boundary Line. The Boundary Line is an arbitrary 
line that has no rationale in determining risk to commercial 
fishermen. The Boundary Line does not appear on charts, and its 
inconsistency should disqualify it from any logical use in 
fishing vessel safety regulations.
    The three mile line exists on all charts; it is consistent. 
Distance from shore is a true measure of risk that makes sense. 
The substitution of the three mile line for the Boundary Line 
would go a long way toward making Federal fishing safety 
regulations more practical and user-friendly.
    Thirdly, there has been of late a surge of interest and 
support for safety training in the commercial fishing industry 
throughout the Country. Fishermen are recognizing the advantage 
that safety training provides them. Safety training provides 
fishermen with the necessary tools to handle difficult 
situations with emergency response skills.
    Current Federal regulation requires all federally permitted 
vessels to have on board a person who has successfully passed 
the drill conductor course and conduct drills on a monthly 
basis, or have a qualified drill conductor perform monthly 
drills dockside.
    This regulation is very difficult to enforce. Maine's 
Commercial Fishing Safety Council would like to propose a 
simple method to enhance safety: require all fishermen holding 
National Marine Fisheries Service Commercial Vessel Operator's 
Permits to successfully complete the Drill Conductors Course. 
The captain of the vessel is responsible for the safety of his 
or her crew. The captain should be required to complete this 
course. This suggestion is easily enforceable; possession of an 
Operator's Permit proves completion of the course. The 
structure for issuing the Operator's Permit is already in 
place, as is the Coast Guard-approved Drill Conductors Course.
    Parity, preemption, the Boundary, and training. These 
issues need to be dealt with at the Federal level to enhance 
safety for all commercial fishermen.
    I would like to thank the Committee for your time and 
attention. I would be happy to answer any of your questions.
    Mr. Cummings. Thank you very much.
    Ms. Hughes?
    Ms. Hughes. Thank you. Good morning, Mr. Chairman and 
distinguished Members of the Subcommittee. I thank you for the 
opportunity to testify today on fishing vessel safety. It is a 
subject that I have been very involved in for 22 years.
    My oral statement will be brief, but I request that my full 
written statement be entered in the record.
    Mr. Cummings. Without objection, so ordered.
    Ms. Hughes. Thank you.
    I am the Executive Director of the North Pacific Fishing 
Vessel Owners' Association, known as NPFVOA, Vessel Safety 
Program. It is a non-profit organization totally dedicated to 
safety, training, and education of commercial fishermen. Our 
facility is located in Seattle. In the Seattle area, vessels 
are significant; they represent a very diverse fleet and they 
account for about 85 percent of the catch in Alaska, which 
equates to approximately 50 percent of the Nation's seafood 
harvest.
    I have worked in the fishing industry for 32 years, 22 of 
which have been with the NPFVOA since its inception. I served 9 
years on the Coast Guard's Fishing Vessel Safety Advisory 
Committee and I was recently reappointed to a 3-year term.
    The NPFVOA Vessel Safety Program was developed in 1985 in 
cooperation with the U.S. Coast Guard as a voluntary effort to 
improve the poor safety record of the commercial fishing 
industry in the North Pacific. The reason, as you heard from 
Admiral Bone, was that the Coast Guard was unable to get 
regulations in place at that time.
    I would like to just describe briefly a few of the key 
concepts on which our program has been built that could 
possibly provide lessons for the future, safety, and the 
industry.
    A successful program has to have several elements: it has 
to be highly professional, but it does not need to be large in 
scope or expensive to operate; it needs to have a regional 
focus and have the direct participation with fishermen and 
support of the Coast Guard.
    The success of NPFVOA's program is evidenced by the 
attendance in our safety courses, which now exceeds 33,000, of 
which 70 percent of that has been voluntary. A safety culture 
has evolved in the Pacific Northwest. Training levels are 
active in this region, which has been a big factor in reducing 
fatalities. Safety training is key to improving how casualties 
can prevent it and how people respond if faced with an 
emergency.
    NPFVOA's program was established to address particular 
problems as we know them in our region. Similar programs could 
be established in any region where the fishing industry itself 
is willing to adopt a real safety culture to take action 
themselves.
    While there are many common denominators of going to sea 
anywhere that apply to all regions, casualty information for 
each region clearly indicates that peculiarities to fishing--
techniques, vessel loading, or environmental conditions in each 
region--should be addressed separately and specifically.
    The Commercial Fishing Industry Vessel Safety Act of 1988 
was extremely important, I believe, as a first step that 
provided a springboard to national standards for improving 
safety aboard fishing vessels, but that Act has not generated a 
program of casualty prevention. Coast Guard enforcement of the 
regulations has been inconsistent from region to region. I 
believe that Coast Guard oversight and enforcement is 
absolutely critical to improving safety in the fishing 
industry.
    My written testimony illustrates how innovative Coast Guard 
actions that were recently taken in Alaska have been extremely 
effective and supported by the industry, in fact, embraced by 
the industry.
    To conclude, I believe that the 51 percent decline in 
fatality rates among commercial fishermen in Alaska from 1990 
to 2006 that NIOSH has substantiated are largely due to three 
things: the safety training infrastructure in the Pacific 
Northwest and Alaska; the emphasis on oversight of the industry 
and proactive initiatives by the Coast Guard in Alaska; and the 
safety culture that has evolved, with many fishermen treating 
safety as a priority and going way beyond the minimum 
requirements.
    Thank you very much for the opportunity to share my 
observations.
    Mr. Cummings. Thank you very much.
    Captain Collins?
    Mr. Collins. Thank you. Good morning, Mr. Chairman and 
Members of the Subcommittee. I am Blaine Collins, Vice 
President and Regional Manager of Det Norske Veritas. I am 
honored to have this opportunity to discuss fishing vessel 
safety with you today.
    DNV is one of the world's leading classification societies 
and has worked to improve safety at sea since 1864. Indeed, our 
corporate objective is safeguarding life, property, and the 
environment by managing risk.
    In my testimony today, I will describe ship classification 
and the classification process; discuss key conventions of the 
International Maritime Organization, a United Nations Body; 
brief the Subcommittee on the Torremolinos International 
Convention for the Safety of Fishing Vessels; and share our 
views to improve fishing vessel safety.
    In general terms, classification societies develop rules 
and standards for the construction of ships. Classification 
rules primarily cover the structural strength and integrity of 
a ship's hull, the reliability of the propulsion and steering 
systems, power generation, and other auxiliary ship systems for 
the safe operation of the ship. DNV's rules are based on the 
accumulated experience from DNV's large classed fleet, which 
today is more than 16 percent of world's fleet; our research 
and development programs; and more than 140 years of 
experience.
    Classification societies may also act as recognized 
organizations for flag states, verifying the vessel's 
compliance with international regulations. DNV has been 
authorized to perform these statutory surveys and issue 
certificates on behalf of more than 130 flag administrations, 
including the United States. Today, there are 63 U.S. flag 
vessels classified by DNV, including fishing vessels.
    The IMO Safety of Life at Sea SOLAS Convention is generally 
regarded as the most important of all international treaties 
concerning the safety of merchant ships. The first version was 
adopted in 1914 in response to the Titanic disaster, with 
successive updates through today reflecting technical advances 
and the demands and expectations of society for safety.
    The main objective of the SOLAS Convention is to specify 
minimum safety standards for the construction, equipment, and 
operation of ships. Flag states are responsible for ensuring 
that ships under their flag comply with these requirements, and 
a number of certificates are prescribed in the Convention as 
proof that this has been done. Surveys in issuance of these 
certificates are typically delegates to recognized 
classification societies by the flag state.
    Curiously, SOLAS does not apply to fishing vessels, and 
this is probably a major reason why fishing remains a high-risk 
occupation. In the absence of common international regulations, 
national regulations have, unfortunately, become unavoidable. A 
consequence of national versus international regulations, 
however, is that two fishing vessels operating in international 
waters may be subject to very different national regulations.
    While it is encouraging that the existing U.S. requirements 
for life saving and safety equipment have led to a decline in 
the number of deaths, there has not been a corresponding 
decrease in the number of actual fishing vessel casualties. 
Clearly, this indicates that the technical aspects of the 
vessel, particularly the strength of the hull, the stability of 
the vessel, watertight integrity, and the reliability of the 
propulsion and machinery equipment, all of which are fully 
considered in the classification system, are important to 
further improve fishing vessel safety. Simply stated, the 
safety and life saving equipment regulations are helpful, but 
the safety of fishermen can be greatly improved if we take 
steps to minimize the loss of the vessel, propulsion and 
machinery failures, and we address the safe operation of 
equipment. Classification is the internationally accepted, 
well-established and effective system that achieves these goals 
for the world's large cargo passenger vessels. It should be 
mandatory for all fishing vessels greater than 24 meters in 
length.
    Globally, the safety of fishing vessels has been a concern 
for many years. The IMO convened a convention for fishing 
vessel safety in Torremolinos, Spain in 1977. The convention 
was not widely ratified, but the protocol has been included in 
a European Union Council directive. This directive is intended 
to fill the gap created because SOLAS requirements do not apply 
to fishing vessels and, in fact, it is often regarded as 
``SOLAS for fishing vessels.'' Most coastal nations in Europe 
have made this directive part of their national regulations. 
Fishing vessels that comply with this EU directive are issued a 
Fishing Vessel Safety Certificate. DNV is authorized to issue 
these certificates on behalf of European Flag Administrations.
    Most of the requirements in the Torremolinos protocol are 
covered by the DNV classification rules. Also, most European 
flags now require fishing vessels to be built according to the 
rules of recognized classification societies, especially for 
structural strength; classification societies to ensure that 
stability requirements are met; safety training and 
certification of t he crew; specific safety equipment to be on 
board and certification requirements for life saving, fire 
fighting, navigation, and other equipment.
    In conclusion, DNV strongly encourages the United States to 
require classification of fishing vessels greater than 24 
meters in length and, two, to adopt the requirements of the 
Torremolinos Convention.
    Finally, in implementing these two recommendations, DNV 
urges the United States to seek international solutions and 
regulations to the maximum extent possible, rather than Federal 
or State regulations. This will provide a uniform standard 
throughout the world in a transparent and predictable 
regulatory regime. DNV pledges to do its part to assist the 
United States and to work with the rest of the world to achieve 
real and measurable improvements in fishing vessel safety.
    I thank the Committee for its interest in our views and for 
this opportunity to share some of our thinking with you. I 
would be happy to respond to your questions.
    Mr. Cummings. Thank you very much, Captain.
    Deb Shrader, please. Welcome.
    Ms. Shrader. Thank you, Mr. Chairman, and thank you for the 
time that you have allowed us to discuss this difficult 
subject.
    By way of introduction, as noted, I am the Executive 
Director of an organization called Shore Support, Incorporated, 
which has been working in the interest of commercial fishermen 
in the Port of New Bedford for the last 10 years. I am also the 
wife of Captain Ronnie Shrader, who runs two commercial 
scallopers out of the Port of New Bedford, so you can see why I 
have both a personal and professional interest in what happens 
with these regulations.
    Shore Support is a committee within our corporation called 
the Fishermen's Emergency Relief Fund. It was started after the 
tragic loss of the Fishing Vessel Northern Edge in December of 
2004. Since that time, we have been able to help fishermen in 
need, some because of regulatory pressures and, in most cases, 
because of tragedy at sea, loss of life, with the major wage 
earner of the family being taken away in most cases.
    Recently, I have spent some of each day for the last four 
months with the family members of the Fishing Vessel Lady of 
Grace, and also with one of the families from the vessel Lady 
Luck of Newbury Port. I can tell you that that experience, and 
also my personal ties to the sea through my husband, makes the 
realities of the ocean a sure reality in my life and in my 
work.
    I also would like to address you primarily as a fisherman's 
wife, because that is who I am. I started this organization 
because of my love for my husband and because I wanted him to 
be represented by his family. I want you to realize that I and 
other women like me know that there is only so much that we can 
do to keep our men safe at sea. There are things--Mother 
Nature, the boat being small, the ocean being large--we realize 
that we can't stop everything from happening. We realize that 
it is a job that our husbands have chosen to do and we, as 
their wives, have chosen to stand behind them and do everything 
we can to help them. We know that Congress can't stop all of 
the deaths, but we do ask for your partnership in the following 
items that I have chosen to discuss with you.
    First of all, safety training. Shore Support has been 
involved with the School for Marine and Science Technologies 
since 2003 in socioeconomic study. In 2005, we visited with 94 
percent of our ground fish fleet, and by visiting I mean we 
went boat to boat and spoke with the crew members on each of 
these vessels. I can tell you that 90 percent of the men that 
we spoke with--so 90 percent of 94 percent of the fleet--have 
voluntarily taken use of the safety classes that were put 
together in New Bedford by the Massachusetts Department of 
Employment and Training, NOAA, the city's mayor, and also the 
Coast Guard. Many of the men also took the conductors classes, 
allowing them to teach their crew members and review on a 
monthly basis, as required by law, what the crew has learned.
    This has had a huge impact not just on the practices of our 
men, but on their perspective of safety at sea, and that 
perspective is the most important thing. When I surveyed the 
boats in an early study in 2003, when I asked the guys where 
their survival suits were, they were like in the fore peak 
behind the fuel filters and gallons of water. Since then, last 
year when we interviewed our men, they were either in the mud 
room, which is right near the back door, in the wheelhouse, or 
at the foot of their bunks. Now, none of those situations is 
perfect because you never know, when a situation happens at 
sea, where you will physically be on that boat, but at least 
they are very much aware of where their suits are.
    Another thing that the safety courses have taught our men 
is that many of the guys bought suits years ago and just put 
them on the boat, and we found that during the experience of 
putting the suits on and physically jumping into the water, 
then jumping into the raft in the suits, they found out not 
just the confidence in going from talking about a principle to 
actually putting it into action that they are now going to sea 
with a lot more confidence. But we also found that a lot of the 
guys had not only gotten older, but they had gotten larger, so 
there were many suits that didn't fit. So through the course of 
the safety classes, we now have well fitted, very well suited 
safety equipment on our boats.
    Let me now go to voluntary dockside inspection. Kevin Coyle 
is a Coast Guard officer in the City of New Bedford that does 
these voluntary inspections in our city. We consider him very, 
very important to our operations in our fishing industry. We 
hope that you will continue to fund the inspections, but they 
should be done on a voluntary basis. Every fisherman that I 
talked to--and I have more than 150 signed members of Shore 
Support, and I can walk down any dock in New Bedford and some 
in Gloucester that I know, so I have talked to a lot of 
people--they feel that they want to come home. No fisherman 
leaves port without the sense that he is going to come home. If 
they didn't have that feeling, they wouldn't fish. So I think 
that our guys are so over-regulated with the ground fish and 
scallop industry regulations that they themselves want to be 
kept safe, so they will take advantage of the voluntary 
inspections.
    Stability inspections of vessels 50 to 79 feet, I totally 
agree with it being mandatory, mostly because of the general 
category scallop licenses that have been added to the multi-
species ground fish licenses that are under such pressures. 
They have taken on the general category scallop license, which 
allows them to put a 10-foot scallop dredge onto their boat and 
allow them to haul back a scallop dredge, which is completely 
off balance from what their boat was originally designed for. 
Our boats are going much further and further offshore in order 
to pursue that day at sea being economically viable, so we 
totally support the mandatory inspection for stability of 
vessels from 50 to 79 feet.
    Certification and licensing of captains. I do not feel that 
licensing of the current captains and mates of our vessels 
would be an advantage. In 2003, when I did the study with SMAST 
with the School for Marine and Science Technologies, we found 
that we have a very aging fleet. People are not coming into the 
fishing industry anymore because, between regulations and 
closed areas, and also the fear of life and limb, why deal with 
it? So what we have in our fleet, I can show you by numbers 
that we have an aging fleet with the median age for scallopers 
is 40 and the median age for ground fishermen is 46; and their 
years at sea balance between 23 and 26 years at sea experience. 
So I would say that if you are going to make licensing 
mandatory, that you need to find a way to grandfather in these 
men. That would be like me driving my car for 25 years and then 
you ask me to go and get a license, or you, as Congressmen, 
sitting there and then someone saying you need more 
qualifications, because even though you brought your community 
billions and billions of dollars of seafood and commerce. So 
that would be a stipulation.
    Also, I think one thing that I am very afraid of--because--
Shore Support represents the rank and file fishermen--I am very 
afraid that you will transfer the responsibility of accident 
liability from the boat owner to the captain and their mate. 
Now, fishermen are supposed to be self-employed individuals; 
however, they are not allowed to claim--my husband spent 
$170,000 on fuel last year. He wasn't able to claim that 
expense. So they are quasi-self-employed people. So I am very 
afraid that when this legislation is drafted, that because of 
the power of the boat owners, that the responsibility for 
safety at sea will go to the captain.
    Now, what you must understand--and some people say that by 
being captain you are the master of that vessel. I have to 
disagree with you, because I believe that with the 
communications that are now available and with the fleet 
ownership that is taking place in our port, when more and more 
single people are owning more and more vessels, it is called 
consolidation, which I also am not for--my husband does not 
make an individual decision when it comes to whether or not it 
is safe to come home if he wants to keep his job. The boat 
owners are now getting more and more power, where my husband 
has lost some of his power being captain, the personal goal 
that he had. And they are in constant universal communication 
with the boat owner, so you can lose your job.
    In closing, if I might, I just wanted to mention something 
that you mentioned in the beginning, and that was the 
expedience of implementation of regulation. Since 1976, it has 
been required that social and economic impact has been to taken 
into effect when looking at regulations regarding fisheries. 
Since 1976, that law has been ignored, and I hope that when you 
talk about making safety part of the regulatory process, that 
it is at the beginning of the process of building these laws, 
and not like they are doing to me, making me study 
socioeconomics after the dinosaur has already walked through 
the footprint.
    Thank you, gentlemen.
    Mr. Cummings. Thank you very much.
    Ms. Shrader. Oh, pardon me, sir. May I just make one more 
comment?
    I just wanted to make the comment that the Coast Guard 
people that are working out of our port, the Coast Guard people 
that worked with the people that I have been working for from 
the Fishing Vessel Lady of Grace, showed more compassion and 
more understanding than I have ever seen from any bureaucratic 
organization or agency, and I would really just like to let you 
know that they do a fine job in New Bedford and we definitely 
depend on them greatly. I am very grateful to them and I would 
like that to be known. Thank you, sir.
    Mr. Cummings. Thank you very much. You will find that this 
Committee are probably some of the strongest advocates of the 
Coast Guard in the Congress, because they come under our 
jurisdiction, for one thing, and one of the things that we are 
trying to do is to make sure that there is a synchronization 
between the Coast Guard increasing responsibilities and the 
resources that they need to carry out those responsibilities 
and personnel.
    So we agree with you, we think they do a great job, but we 
want to make sure they maintain that.
    Ms. Shrader. Yes, sir.
    Mr. Cummings. One of the things that I find very 
interesting--and I think all of you have just about touched on 
this--seems to be the whole issue of safety, and I will start 
with you, Mr. Baines. It seems folks have really gotten it, I 
mean the people in the industry. Is that because, in large 
part, you have seen so much tragedy, do you think? You know, 
sometimes people, when they think about safety, they think, oh, 
later. It is sort of like when you are sitting on the airplane 
and the assistant--what do you call them?
    Ms. Shrader. Stewardess.
    Mr. Cummings. Flight attendant. They used to call them 
stewardess, and I didn't know whether that was politically 
correct.
    But the flight attendant goes through all the things and 
shows you, and some people fall asleep, others read a magazine. 
It seems, though, that in this industry folks have said this 
light has come on and they say, wait a minute, we have got to 
make sure we deal with this.
    Since you are a fisherman, Mr. Baines, would you comment on 
that for me, please?
    Mr. Baines. I think it is more awareness from the 
industry's perspective. You know, there always has been losses 
of fishermen and vessels, but there seems to be more awareness 
by the fishermen today. I don't know if the fishermen are a 
little bit more educated or just what it is. There are more 
publications now of ``Commercial Fisheries News,'' the 
``National Fisherman,'' those type of things. There are a lot 
of articles on it through the Internet. There is more 
information out there, so fishermen are more aware of the need 
for training and doing what they need to do to make sure they 
get home to their families.
    Mr. Cummings. And the Maine Commercial Fishing Safety 
Council, can you tell us about how that came about and what 
they do?
    Mr. Baines. It was formed about two and a half years ago, 
after a bad year in the State of Maine. We lost I believe it 
was either 11 or 12 fishermen in the previous year. Then 
Governor Angus King put together a task force to see what could 
be done about enhancing safety for the fishermen, and through 
the recommendations of the task force the Safety Council was 
formed, and we have been working for a little over two years 
now. You know how these things go, it takes quite a bit of time 
to get them up and running, but we have been working for about 
two years now on a number of different issues, some more 
successful than others, one that you heard of. What we have run 
into, though, is a stone wall as far as preemption and parity 
is concerned with the Federal Government, and what we are 
looking for from Congress and the Coast Guard is to allow the 
States to enact commercial fishing regulations and be a partner 
with the Coast Guard in safety regulations.
    They all weave together. I mean, a three mile line, guys 
don't pay attention to where the three mile line is; they fish 
inside, they fish outside. It is very important to distinguish 
a certain line distance from shore for different types of 
regulations, but that is why the States need to partner with 
the Coast Guard, to have the same regulations for the same 
vessels fishing in the same areas.
    Mr. Cummings. Anyone else want to comment on that?
    Ms. Shrader?
    Ms. Shrader. I feel that the partnership with NOAA and 
National Marine Fisheries has brought awareness, and working 
with Kevin, with the rest of the Coast Guard representation in 
New Bedford, and also because the fishing community I think, at 
least in the Northeast Region that I can speak of, it has 
become just more cohesive, where just awareness and a lot of 
different things have come together, including working together 
for regulatory purpose, and part of that was bringing about the 
awareness of safety. Once NOAA and National Marine Fisheries 
began to give us funding and help us to put together 
curriculum, it has been happening and people are just being 
very receptive to it. Every man wants to come home.
    Then, just recently, Massachusetts Fishermen's Partnership 
did another program in New Bedford that was like a 
continuation, where they went on to first aid information and 
also stability, because we feel that that was a big issue in 
our loss of the fishing vessel ``Lady of Grace.'' So we are 
building on the curriculum, so I would hope that Congress would 
help us to fund NOAA to work with the community so that we can 
spread what has worked so well in New Bedford and in other 
places in Alaska, from the last testimony, to make these 
trainings available to people. Fishermen will go. It is like 
build it and they will come. You know, give them the 
opportunity to learn these things, fund them for them, because 
so much has been put on their backs with the regulations, and 
they will go and make use of what you give them.
    Mr. Cummings. How long does that training take?
    Ms. Shrader. The training takes two days on a weekend, and 
what they do is they do everything from study electrical fires, 
fires on the boat, they jump in their survival suits, they get 
in the suits and get in a raft in the water. My husband, with 
20 years of experience, did come home and tell me that he was 
very much impressed, that he did learn things from the classes, 
such as electrical fires, that he hadn't experienced, and was 
glad to have that additional information.
    Mr. Cummings. Ms. Backus, you have provided us with quite a 
bit of information about the provision in the current statute 
that creates a significant disparity in regard to required 
safety equipment between fishing vessels that are numbered by 
the State and those that are documented by the Coast Guard. 
Describe the major difference in required safety equipment for 
documented versus State numbered fishing vessels. Can you break 
that down for us?
    Ms. Backus. Yes, sir. The Commercial Fishing Industry 
Vessel Safety Act has requirements that are in common for the 
documented and State numbered vessels, and then when the 
vessels are beyond the Boundary Line, the documented vessels 
have very specific requirements and the State numbered vessels 
do not. For example, first aid equipment and training is 
required for a document vessels, but first aid equipment and 
training are not required for those State numbered vessel. So a 
State numbered vessel can be beyond the Boundary Line and not 
have to have a first aid kit and not have to have anyone on 
board who knows how to respond to a medical emergency.
    The same goes for guards of exposed hazards, for instance 
winches for trawlers. There don't need to be any guards on the 
trawlers, or at least it is not required, for State numbered 
vessels, but those guards are required for documented vessels.
    Navigation information is the same situation: compass; 
anchors; radar reflectors; communication equipment; high water 
alarms in some cases; bilge systems; electronic position fixing 
devices; emergency instruction; and then also monthly drills 
and safety orientation. All those that I just named are 
required by law to be on documented vessels, not required by 
law to be on State numbered vessels. However, some of those 
items are, of course, on State numbered vessels because vessels 
go out with anchors and they do go out with compass, but they 
are not required.
    The most important thing here is that there is no safety 
training or drill conductor course required for those State 
numbered vessels that go beyond the Boundary Line.
    Mr. Cummings. Ms. Hughes, you state that while the Act made 
improvements to the industry's response capabilities, the 
current need is to improve the prevention of casualties. Other 
than the strategies for improving safety that have been 
implemented for Bering Sea crab fleet, what other measures do 
you feel should be taken to prevent vessel losses?
    Ms. Hughes. Thank you, Mr. Chairman. One of the things that 
has been done in Alaska that has been enormously effective and 
it is something that is done on passenger vessels is going 
beyond having this new requirement, there has been a lot of 
discussion about requiring that when crews conduct drills, that 
that be logged. But the Coast Guard in the Seattle area and 
Alaska have started to require that crews demonstrate that they 
can conduct effective drills, and it was very interesting to 
see how that was responded to by the industry.
    This is a very interesting industry, and I think this 
applies nationally, that it is very competitive. So, 
immediately, the first several crews that were asked to 
demonstrate their proficiencies were not entirely satisfied 
with their performance and they wanted the Coast Guard to come 
back. Then it ended up that they actually wanted to be graded, 
and then the word started spreading that people were going to 
have to show that they knew what they were doing, and it was 
immediately apparent. If the crews had not been conducting 
monthly drills, there was no question that you could tell. So 
it reinforced a sense of importance about it, that the Coast 
Guard cared if they were doing them well.
    I would just like to add one other element of why this 
enforcement is so critical. The drills, even in our area, had 
not been enforced before the ``Galaxy'' fire. So when the Coast 
Guard held their investigation of that emergency situation--
three people had died in it; the rest of the crew survived, but 
it was quite incredible that they weren't all lost--the captain 
and the chief engineer were sitting in a separate position 
during the investigation because they were potentially 
criminally liable and they had no idea that by not conducting 
monthly drills they had that sort of exposure. So I think you 
can also make the additional case that if the regulations are 
written and then not enforced, and we have this conversation 
that I question about authority, if it is written in the 
regulations, do they not have the authority? It is hard to 
understand.
    From our perspective of being a training entity, it is 
awkward to be telling people that, yes, you absolutely need to 
do this, it is written here, and then some people could argue 
that, well, do we stand to gain by that. So it is a problem 
that I think the enforcement, if there is a question of 
authority, then hopefully you can help the Coast Guard get 
whatever authority they need, but it is really time to get on 
with getting these things that are written in the regs 
enforced.
    Mr. Cummings. Thank you very much.
    Mr. LaTourette?
    Mr. LaTourette. Thank you, Mr. Chairman.
    Thank all of you for your testimony. I appreciate it.
    Ms. Shrader, yours struck home in particular in that I have 
a whole closet full of suits that I don't think I am going to 
be able to get into in the near future, so I know the 
experience.
    Ms. Hughes, in your testimony you have the number 33,000. 
Is that the number of classes conducted or is that the number 
of participants that have shown up for your training?
    Ms. Hughes. That would be the participants. Some of them 
choose to repeat, so I can't say it is individuals.
    Mr. LaTourette. I am more than impressed with the work that 
your organization has done. My question is 33,000 is a lot, but 
what sort of buy-in do you think you have from the fishing 
community in your region, is it 70 percent, 80 percent?
    Ms. Hughes. Well, it does vary by the fleets, so the 
smaller boats, we have fewer of the smaller boats--and I think 
some of that might be economics--that belong. We have a 
membership base. No one is excluded, but the membership base 
allows us to have constant communication with the industry. It 
is a word of mouth industry in a lot of ways, like what I 
described with competition. There is a lot of peer pressure. So 
as people come in for classes, they tend to talk about, say, 
that they did that, they will say that there was value in it, 
and then somebody else thinks, well, he did that, I should do 
it too. It continues to build momentum, and I think that is how 
you create the safety culture.
    Mr. LaTourette. To Ms. Backus and Mr. Baines, one of the 
great tensions between the United States Congress and State 
legislatures is this whole notion of preemption. It even 
divides the parties sometimes. The Republican party is often 
identified with States' rights, but on certain issues we become 
the biggest federalists you ever saw. Likewise, the Democratic 
party is most associated with the Federal form of Government, 
but on some issues they become the biggest States' rights guys 
you ever saw. So this whole issue of parity is of interest to 
me, and we deal with it in financial services, we deal with it 
in safety regulations. We just had it with the Class 1 
railroads, for instance. So I want to be clear on what it is 
you think--I understand the problem you are describing, but I 
guess I would like to hear from you how you propose we fix it.
    But just before I ask you that sort of general question, 
you are not saying, Mr. Baines, that the current law prohibits 
the State of Maine from establishing and implementing safety 
regulations for State registered vessels operating wholly 
within State waters, are you? That is not what you are saying?
    Mr. Baines. The way I understand it is Federal law 
prohibits the State of Maine from adopting any commercial 
fishing safety regulations for their State registered boats, 
and the ability to enforce those regulations.
    Mr. LaTourette. And it is your understanding that that is 
true for vessels that operate wholly within State waters?
    Mr. Baines. Yes, that is true. The Coast Guard can enforce 
Federal regulations both in and out, but common sense would 
dictate that you have the same regulations in State waters as 
you do outside State waters, and the ability to enforce those 
regulations, right now the State of Maine can only have 
recreational standards apply to their boats.
    Mr. LaTourette. We are going to check that out, because I 
agree with you that common sense dictates the other. I am not 
so sure that the State of Maine or any State can't make safety 
regulations on commercial fishing vessels that operate wholly 
within State waters, but I would like to correspond with you on 
that.
    Let's go to the issue of parity. How do you think we fix 
it? Is it that we should butt out and let each State act or 
should we propose and propound a national standard and preempt 
the States from acting as long as our regulations are decent? 
Ms. Backus?
    Ms. Backus. Thank you. There may be a variety of options 
here. One option is to have the Coast Guard Safety Act cover 
all vessels equally so that the documented and the State 
numbered vessels are covered within the State waters and beyond 
the three mile line, for example. Another one would be for the 
Coast Guard to do what it can do and then to allow the States 
to make some adjustments based on local conditions. For 
example, the State of Maine, by and large, we are a cold water 
State, as is Alaska, so for virtually 12 months of the year our 
fishermen are in cold water. That is very different, as the 
Representative mentioned, than----
    Mr. LaTourette. The Gulf Coast.
    Ms. Backus.--the Gulf Coast, exactly. So there may be a 
chance for States that have special conditions to address those 
conditions if they are not able to be addressed at the Federal 
level.
    So I think that it will take some collaboration among all 
of us to find the right place where we can promote safety and 
promote parity at the same time.
    Mr. LaTourette. Okay.
    Mr. Baines, does your answer differ significantly from 
that?
    Mr. Baines. I would just like to add to that, which would--
because along with it is the issue of the Boundary Line. In the 
State of Maine it comes to shore in places; it is 20 miles off 
shore in other places To truly address the whole issue of 
parity, the Boundary Line also I think plays a very important 
role in truly illuminating the Boundary Line.
    Mr. LaTourette. Okay. One of the difficulties sometimes 
when we get into this preemption fight is that you have a 
national standard, and if it is sufficient, you recognize a 
national standard is needed because sometimes States do stuff 
that just don't make sense. I mean, the Federal Government does 
stuff that doesn't make sense from time to time, too.
    I think I like your answer a lot, Ms. Backus, in that if we 
had a Federal standard and empowered the Coast Guard to have 
something--I mean, some of this stuff is no brainer; I mean, 
first aid training and how to put out fires and how to get in 
your survival suits. So if we had a national standard that 
covered all, the entire Country, do you think it would be 
acceptable if we permitted the States to continue to act, but 
only in those areas that were unique to Maine, Alaska, or Mr. 
Taylor's concern, the Gulf Coast? Would that be a reasonable 
way to get at this, do you think?
    Ms. Backus. Well, I am not able to speak for all the other 
States, I guess, but I think having the States have the option 
to collaborate with the Coast Guard around certain special 
conditions that may exist, either by the type of fishery--
because some fisheries are more hazardous than others--or by 
the conditions in which those fisheries do their work, that 
that would be a reasonable approach to this, yes.
    Mr. LaTourette. I do too.
    Listen, I want to thank all of you for coming. I have 
learned something today, so thank you very much for your 
testimony.
    Thank you, Mr. Chairman.
    Mr. Cummings. I want to thank you too.
    Just a few more questions for Captain Collins. Captain, you 
have told us about classification, and the things that you have 
told us have been very helpful. I guess you recommend that the 
U.S. require classification of all fishing vessels greater than 
24 meters in length by a recognized classification society. Are 
you suggesting this requirement for all vessels or just new 
construction?
    Mr. Collins. Thank you for that question, Mr. Chairman. 
That is a very complicated question to answer. My first 
response would be that absolutely it should be required for all 
new vessels. But I think that the regulation would have to have 
some sort of phase-in period, because clearly the vessels that 
have not been built to classification society requirements and 
are operating today would probably require substantial upgrades 
in order to meet those requirements.
    Mr. Cummings. And probably pretty expensive.
    Mr. Collins. I believe so.
    Mr. Cummings. In many instances, I would take it.
    Mr. Collins. Yes, I believe so.
    Mr. Cummings. So that would be a substantial burden on 
those----
    Mr. Collins. On the existing fishing vessel owners.
    Mr. Cummings. And I guess some kind of grandfather clause 
would help. Well, it doesn't help. You have got so many out 
there.
    Mr. Collins. Yes.
    Mr. Cummings. So it is going to take a long time for them 
to be no longer used. I guess you are talking about 20 or 30 
years before you can have, say, 95 percent of your vessels be 
subject to the new rules.
    Mr. Collins. I think it is easy to make it effective for 
all new construction vessels. For the existing vessels, I think 
that perhaps the decision-making process should consider a 
study that looks at the average age of the fishing vessel 
fleet. Let's say that the average age of the fishing vessel 
fleet is 15 years. Then perhaps there might be a tenure time 
period after which those vessels would have to meet the 
classification requirements or they should be replaced with new 
vessels built to classification rules.
    Mr. Cummings. As we close the hearing, I want to thank all 
of our witnesses today for being part of this hearing. What we 
try to do here is gather as much information as we possibly 
can, and as I am sure you are well aware, the hearing only is a 
small part of what we do to try to come up with solutions to 
problems. The thing that I hope that you will always keep in 
mind is that this process is one that allows you to touch 
people that you don't even know and will never meet, and 
perhaps even touch generations yet unborn.
    A lot of people come to these hearings and they say, well, 
you know, I had to fly down and I had to get up early and 
whatever, and then I had to testify and then I had to hear 
these questions from these folks and be a little nervous at 
times, although you all were very cool. But it is all for a 
purpose. It is all about us trying to create a better world, 
and in this instance create a safer world, going back to what 
you were saying, Ms. Shrader, so that husbands and wives and 
others that go out to sea will come back.
    And it is very refreshing--and I know Mr. LaTourette agrees 
with me--to hear, Mr. Baines, that fishermen and women and 
others in the industry realize how significant this whole thing 
of safety is and the fact that there is a connection between 
training and saving of lives. I mean, that is so significant 
and sort of hard to figure out how many lives you save. I know 
we can look at the stats, but just the idea that we have seen a 
reduction when there was this training, that says a whole lot.
    So we are going to do the best we can. Again, I say this 
not only to this panel, but the other panel. There will 
probably be some things that we will be sending to you, 
questions just to follow up on what we have done here today, 
but we are going to try to do everything in our power--I am 
sure you all heard my little thing about the clock ticking--to 
do all that we can while the clock is still ticking to make 
things better.
    Anything else, Mr. LaTourette?
    [No response.]
    Mr. Cummings. Thank you all very much. This hearing is 
coming to an end.
    [Whereupon, at 12:08 p.m., the Subcommittee was adjourned.]
    [GRAPHIC] [TIFF OMITTED] 35915.009
    
    [GRAPHIC] [TIFF OMITTED] 35915.010
    
    [GRAPHIC] [TIFF OMITTED] 35915.011
    
    [GRAPHIC] [TIFF OMITTED] 35915.012
    
    [GRAPHIC] [TIFF OMITTED] 35915.013
    
    [GRAPHIC] [TIFF OMITTED] 35915.014
    
    [GRAPHIC] [TIFF OMITTED] 35915.015
    
    [GRAPHIC] [TIFF OMITTED] 35915.016
    
    [GRAPHIC] [TIFF OMITTED] 35915.017
    
    [GRAPHIC] [TIFF OMITTED] 35915.018
    
    [GRAPHIC] [TIFF OMITTED] 35915.019
    
    [GRAPHIC] [TIFF OMITTED] 35915.020
    
    [GRAPHIC] [TIFF OMITTED] 35915.021
    
    [GRAPHIC] [TIFF OMITTED] 35915.022
    
    [GRAPHIC] [TIFF OMITTED] 35915.023
    
    [GRAPHIC] [TIFF OMITTED] 35915.024
    
    [GRAPHIC] [TIFF OMITTED] 35915.025
    
    [GRAPHIC] [TIFF OMITTED] 35915.026
    
    [GRAPHIC] [TIFF OMITTED] 35915.027
    
    [GRAPHIC] [TIFF OMITTED] 35915.028
    
    [GRAPHIC] [TIFF OMITTED] 35915.029
    
    [GRAPHIC] [TIFF OMITTED] 35915.030
    
    [GRAPHIC] [TIFF OMITTED] 35915.031
    
    [GRAPHIC] [TIFF OMITTED] 35915.032
    
    [GRAPHIC] [TIFF OMITTED] 35915.033
    
    [GRAPHIC] [TIFF OMITTED] 35915.034
    
    [GRAPHIC] [TIFF OMITTED] 35915.035
    
    [GRAPHIC] [TIFF OMITTED] 35915.044
    
    [GRAPHIC] [TIFF OMITTED] 35915.045
    
    [GRAPHIC] [TIFF OMITTED] 35915.046
    
    [GRAPHIC] [TIFF OMITTED] 35915.047
    
    [GRAPHIC] [TIFF OMITTED] 35915.048
    
    [GRAPHIC] [TIFF OMITTED] 35915.049
    
    [GRAPHIC] [TIFF OMITTED] 35915.050
    
    [GRAPHIC] [TIFF OMITTED] 35915.051
    
    [GRAPHIC] [TIFF OMITTED] 35915.052
    
    [GRAPHIC] [TIFF OMITTED] 35915.053
    
    [GRAPHIC] [TIFF OMITTED] 35915.054
    
    [GRAPHIC] [TIFF OMITTED] 35915.055
    
    [GRAPHIC] [TIFF OMITTED] 35915.056
    
    [GRAPHIC] [TIFF OMITTED] 35915.057
    
    [GRAPHIC] [TIFF OMITTED] 35915.058
    
    [GRAPHIC] [TIFF OMITTED] 35915.059
    
    [GRAPHIC] [TIFF OMITTED] 35915.060
    
    [GRAPHIC] [TIFF OMITTED] 35915.061
    
    [GRAPHIC] [TIFF OMITTED] 35915.062
    
    [GRAPHIC] [TIFF OMITTED] 35915.063
    
    [GRAPHIC] [TIFF OMITTED] 35915.064
    
    [GRAPHIC] [TIFF OMITTED] 35915.065
    
    [GRAPHIC] [TIFF OMITTED] 35915.066
    
    [GRAPHIC] [TIFF OMITTED] 35915.067
    
    [GRAPHIC] [TIFF OMITTED] 35915.068
    
    [GRAPHIC] [TIFF OMITTED] 35915.069
    
    [GRAPHIC] [TIFF OMITTED] 35915.070
    
    [GRAPHIC] [TIFF OMITTED] 35915.071
    
    [GRAPHIC] [TIFF OMITTED] 35915.072
    
    [GRAPHIC] [TIFF OMITTED] 35915.073
    
    [GRAPHIC] [TIFF OMITTED] 35915.074
    
    [GRAPHIC] [TIFF OMITTED] 35915.075
    
    [GRAPHIC] [TIFF OMITTED] 35915.076
    
    [GRAPHIC] [TIFF OMITTED] 35915.077
    
    [GRAPHIC] [TIFF OMITTED] 35915.078
    
    [GRAPHIC] [TIFF OMITTED] 35915.079
    
    [GRAPHIC] [TIFF OMITTED] 35915.080
    
    [GRAPHIC] [TIFF OMITTED] 35915.081
    
    [GRAPHIC] [TIFF OMITTED] 35915.082
    
    [GRAPHIC] [TIFF OMITTED] 35915.083
    
    [GRAPHIC] [TIFF OMITTED] 35915.084
    
    [GRAPHIC] [TIFF OMITTED] 35915.085
    
    [GRAPHIC] [TIFF OMITTED] 35915.086
    
    [GRAPHIC] [TIFF OMITTED] 35915.087
    
    [GRAPHIC] [TIFF OMITTED] 35915.088
    
    [GRAPHIC] [TIFF OMITTED] 35915.089
    
    [GRAPHIC] [TIFF OMITTED] 35915.090
    
    [GRAPHIC] [TIFF OMITTED] 35915.091
    
    [GRAPHIC] [TIFF OMITTED] 35915.092
    
    [GRAPHIC] [TIFF OMITTED] 35915.093
    
    [GRAPHIC] [TIFF OMITTED] 35915.094
    
    [GRAPHIC] [TIFF OMITTED] 35915.095
    
    [GRAPHIC] [TIFF OMITTED] 35915.096
    
    [GRAPHIC] [TIFF OMITTED] 35915.097
    
    [GRAPHIC] [TIFF OMITTED] 35915.098
    
    [GRAPHIC] [TIFF OMITTED] 35915.099
    
    [GRAPHIC] [TIFF OMITTED] 35915.100
    
    [GRAPHIC] [TIFF OMITTED] 35915.101
    
    [GRAPHIC] [TIFF OMITTED] 35915.102
    
    [GRAPHIC] [TIFF OMITTED] 35915.103
    
    [GRAPHIC] [TIFF OMITTED] 35915.104
    
    [GRAPHIC] [TIFF OMITTED] 35915.105
    
    [GRAPHIC] [TIFF OMITTED] 35915.106
    
    [GRAPHIC] [TIFF OMITTED] 35915.107
    
    [GRAPHIC] [TIFF OMITTED] 35915.108
    
    [GRAPHIC] [TIFF OMITTED] 35915.109
    
    [GRAPHIC] [TIFF OMITTED] 35915.110
    
    [GRAPHIC] [TIFF OMITTED] 35915.111
    
    [GRAPHIC] [TIFF OMITTED] 35915.112
    
    [GRAPHIC] [TIFF OMITTED] 35915.113
    
    [GRAPHIC] [TIFF OMITTED] 35915.114
    
    [GRAPHIC] [TIFF OMITTED] 35915.115
    
    [GRAPHIC] [TIFF OMITTED] 35915.116
    
    [GRAPHIC] [TIFF OMITTED] 35915.117
    
                                    

</pre></body></html>
